NRC’S LICENSE FEE DEVELOPMENT
 PROCESS NEEDS IMPROVEMENT

 OIG/99A-01   December 14, 1999
MEMORANDUM TO:               Jesse L. Funches
                             Chief Financial Officer


FROM:                        Thomas J. Barchi
                             Assistant Inspector General for Audits


SUBJECT:                     AUDIT REPORT -- NRC’S LICENSE FEE DEVELOPMENT
                             PROCESS NEEDS IMPROVEMENT


Attached is the Office of the Inspector General’s audit report titled, “NRC’s License Fee
Development Process Needs Improvement.” This report reflects the results of our review.

On December 1, 1999, you responded to a draft of this report. Our report contained three
recommendations, which including subparts, amount to eight specific recommendations for
corrective action. Based on the response, we have closed only subpart (b) of recommendation
three. The remaining seven specific recommendations will remain open until we determine that
corrective actions have been implemented.

Please contact me on 415-5915 if we can assist you further in this matter.


Attachment: As stated
                                    NRC’s License Fee Development Process Needs Improvement

REPORT SYNOPSIS

         The U.S. Nuclear Regulatory Commission (NRC) is required to recover 100 percent
         of its budget authority, less the Nuclear Waste Fund and General Fund
         appropriations, by collecting fees from its licensees. To meet this requirement, NRC
         assesses two types of fees. First, NRC assesses user charges under the authority
         of the Independent Offices Appropriation Act of 1952 (IOAA). Second, under the
         authority of the Omnibus Budget Reconciliation Act of 1990 (OBRA-90), as
         amended, NRC assesses annual fees.

         In the fiscal year (FY) 1998 audit of NRC ’s financial statements, the Office of the
         Inspector General (OIG) identified an IOAA non-compliance in the license fee
         development process. As a result, OIG initiated an in-depth review of NRC’s license
         fee development methodology. The objectives of this review were to determine: (1) if
         the overall process complies with pertinent laws and regulations, and (2) if
         management controls over the fee development process are adequate.
         Our review confirmed our previously reported non-compliance in the fee
         development process and we also identified a potential non-compliance with the
         intent of OBRA-90. We identified management control weaknesses in the
         methodologies used to develop fees. Specifically, these issues concern (1) the
         effects of using the percent change methodology over an extended period of time to
         recover annual fees, (2) a lack of criteria for achieving full cost in the hourly rate, and
         (3) management control weaknesses, including lack of adequate criteria, lack of
         aggressive quality control, and incomplete public information during the Rulemaking
         comment period.

         NRC established the percent change method for annual fees to provide fee stability
         from year to year. However, its continued use without examining and adjusting, as
         needed, the cost relationships due to budget shifts and changes in the numbers of
         licensees has not, in our opinion, fully met the intent of OBRA-90 and has not
         eliminated fee instability but only postponed it. By FY 1998, NRC’s fee structure
         deviated further away from associating fees with the cost of services provided. As
         a result, NRC did not, in OIG’s opinion, fully meet OBRA-90's mandate that
         “charges shall have a reasonable relationship to the cost of providing regulatory
         services...” However for FY 1999, NRC rebaselined its annual fees, where charges
         have a reasonable relationship to their costs, and therefore fully met the legislative
         mandate.

         NRC has not developed specific definitions for generic costs and as a result, treats
         such costs inconsistently in fee calculations. Further, the Agency applies budgeted
         direct costs as if they were billable direct costs. However, we believe they are not
         always the same and should not be used interchangeably. These deficiencies have
         led to inconsistent treatment of costs and non-compliance with IOAA and Office of
         Management and Budget Circular A-25 provisions with respect to recovering full
         cost.

         Finally, inadequate management oversight has resulted in weak management
         controls over this vital Agency process. The lack of aggressive and comprehensive
         management controls has led to inconsistent processes and procedures,

         OIG/99A-01                                                                           Page i
NRC’s License Fee Development Process Needs Improvement

               inadequate quality control, and ultimately resulted in fee calculation errors. While no
               process can be expected to be completely error free, effective management controls
               would have mitigated many of the issues disclosed.

               Left unaddressed, these issues have the potential to undermine the Agency’s
               credibility with the public as it relates to NRC’s ability to prepare and calculate fees
               that fully reflect the intent of appropriate legislation. Strengthening the management
               of the whole fee setting process by instituting more aggressive and comprehensive
               controls and oversight would help ensure that the fees developed fully meet the
               intent of laws and regulations.




               OIG/99A-01                                                                        Page ii
                                          NRC’s License Fee Development Process Needs Improvement


TABLE OF CONTENTS


        REPORT SYNOPSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                  BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                  EXTENDED USE OF THE PERCENT CHANGE METHODOLOGY
                  AFFECTS NRC’S ABILITY TO MEET THE INTENT OF OBRA-90 . . . . . . . . . . . . . 2

                  LACK OF FULL COST RECOVERY CRITERIA RESULTS IN
                  NON -COMPLIANCE WITH IOAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                  MANAGEMENT CONTROLS NEED STRENGTHENING . . . . . . . . . . . . . . . . . . . . 7

        CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

        OIG COMMENTS ON AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


        APPENDICES

                 I           OBJECTIVES, SCOPE, AND METHODOLOGY

                 II          FEE CALCULATION METHODOLOGIES

                III          SUMMARY OF PERCENT CHANGES FOR ANNUAL FEES FROM
                              FY 1998 TO FY 1999

               IV            EXAMPLES OF INCONSISTENCIES IN THE HOURLY RATE
                              CALCULATIONS

                V            ABBREVIATIONS AND ACRONYMS

               VI            AGENCY RESPONSE TO DRAFT REPORT

               VII           NRC ORGANIZATIONAL CHART

              VIII           MAJOR CONTRIBUTORS TO THIS REPORT

               IX            OFFICE OF THE INSPECTOR GENERAL PRODUCTS
                                    NRC’s License Fee Development Process Needs Improvement

INTRODUCTION

         In the fiscal year (FY) 1998 audit of the U.S. Nuclear Regulatory Commission’s
         (NRC) financial statements, the Office of the Inspector General (OIG) identified a
         regulatory non-compliance in the license fee development process. As a result, OIG
         initiated an in-depth review of NRC’s license fee development methodology. The
         objectives of this review were to determine: (1) if the overall fee development
         process complies with pertinent laws and regulations, and (2) if the management
         controls over this important Agency function are adequate. Appendix I contains a
         detailed description of our objectives, scope, and methodology.

    BACKGROUND

         The Omnibus Budget Reconciliation Act of 1990 (OBRA-90), as amended, requires
         that NRC recover approximately 100 percent of its budget authority, less the Nuclear
         Waste Fund and General Fund appropriations, by collecting fees from its applicants
         and licensees. To meet this requirement, NRC assesses two types of fees: user
         charges and annual fees.

         First, under the authority of the Independent Offices Appropriation Act of 1952
         (IOAA), NRC assesses user charges to recover the cost of providing individually
         identifiable services to specific applicants and licensees. NRC implements user
         charges for inspection services and licensing actions for the reactor and materials
         programs under the Code of Federal Regulations, Title 10 Part 170 (10 CFR 170(1)).
         Licensing actions include reviews of applications for new licenses and amendments
         to, or renewal of, existing licenses. NRC develops two professional staff-hour rates
         to charge licensees for its services, one for reactor licensees and one for materials
         licensees. (Section A of Appendix II contains a description of the hourly rate
         calculations.) In FY 1998, the hourly rate for the reactor program was $124 and the
         rate for the materials program was $121. Currently, Part 170 fees recover
         approximately 20 to 25 percent of the total budgeted amount to be recovered through
         fees.

         The second type of fee is an annual fee, implemented through 10 CFR Part 171.(2)
         NRC assesses this fee to recover generic and other regulatory costs not recovered
         through Part 170 fees. The Agency has used one of two methods to calculate
         annual fees: (1) rebaselining, or (2) percent change. (Sections B and C of Appendix
         II contain a description for each method.)




    1
         Part 170 - Fees for Facilities, Materials, Import and Export Licenses, and Other Regulatory
         Services Under the Atomic Energy Act of 1954, as Amended.

    2
         Part 171 - Annual Fees for Reactor Licenses and Fuel Cycle Licenses and Materials
         Licenses, Including Holders of Certificates of Compliance, Registrations, and Quality
         Assurance Program Approvals and Government Agencies Licensed by NRC.

         OIG/99A-01                                                                              Page 1
NRC’s License Fee Development Process Needs Improvement

               The License Fee and Accounts Receivable Branch (LFARB), within NRC’s Office
               of the Chief Financial Officer (OCFO), is responsible for administering NRC fee
               programs. LFARB is also responsible for formulating the policies and procedures
               for license fee activities.

RESULTS OF AUDIT

               Since FY 1991, NRC has annually collected approximately 100 percent of its budget
               as required by OBRA-90. However, our review identified potential and actual non-
               compliances with laws and regulations, and management control weaknesses in the
               methodologies NRC used to develop fees. Specifically, these issues concern (1)
               the use of the percent change methodology over an extended period of time, (2) a
               lack of criteria for achieving full cost in the hourly rate, and (3) management control
               weaknesses, including inconsistencies and poor quality control.

       EXTENDED USE OF THE PERCENT CHANGE M ETHODOLOGY AFFECTS NRC’S ABILITY TO M EET THE
       INTENT OF OBRA - 90

               OBRA-90 requires that NRC establish annual fees by rule, using a schedule of
               charges distributed “fairly and equitably” among the licensees. The legislation
               requires that “to the maximum extent practicable, the charges shall have a
               reasonable relationship to the cost of providing regulatory services and may be
               based on the allocation of the Commission’s resources among licensees or classes
               of licensees.” We found that by using the percent change method over an extended
               period of time, the resulting relationship between fees and the costs of providing
               services does not, in OIG’s opinion, reflect the changes in the budget and in the
               number of licensees. As a result by FY 1998, this relationship deteriorated, and the
               annual fees did not fully reflect the intent of OBRA-90.

               From FYs 1991 through 1995, the Agency used the rebaselining method to calculate
               annual fees. Since FY 1996, the Agency has used either the rebaselining method or
               the percent change method. The rebaselining method attempts to allocate budgeted
               resources to classes of licensees (e.g., Power Reactors). This method is
               consistent with the requirements in OBRA-90, because it maintains a reasonable
               relationship to the cost of providing services. The Agency rebaselined recently for
               the FY 1999 annual fees.

               In the FY 1995 fee rule, NRC announced its intention to adjust the annual fees for
               FYs 1996 through 1999 using the percent change method. This alternative process
               was developed as an effort to stabilize fees. Since Congress enacted OBRA in
               1990, the number of NRC licensees has significantly decreased,(3) causing those




       3
               Prior to OBRA-90, only operating power reactors had an annual fee assessed. Because
               licenses were not being used or for other reasons, many licensees terminated their
               licenses.

               OIG/99A-01                                                                       Page 2
                               NRC’s License Fee Development Process Needs Improvement

    remaining to bear the budgeted costs (4) for their class of license. This, in
    combination with budget shifts each year, caused some annual fees to increase
    substantially and unexpectedly. To bring some predictability to the annual fees, NRC
    introduced the percent change method. In this way, licensees would be able to plan
    ahead, because their annual fees would change in synchrony with changes in NRC’s
    total budget. In theory, for example, if NRC’s budget decreased by 5 percent, a
    licensee could expect its annual fee to similarly decrease by approximately
    5 percent.

    The FY 1995 fee rule stated that the percent change method would be applied to all
    annual fees for the next four years “unless there is a substantial change in the total
    NRC budget or the magnitude of the budget allocated to a specific class of
    licensees, in which case the annual fee base would be reestablished. The decision
    on whether to establish a new baseline will be made each year during budget
    formulation.” According to Agency officials, this was the criteria to be used to
    determine whether to rebaseline or continue to use percent change. Subsequently,
    NRC used the percent change method to calculate annual fees for fiscal years 1996,
    1997 and 1998.

    Although the Agency provided criteria for deciding which method to use in
    calculating the annual fees, NRC did not define the terms “substantial change” or
    “magnitude of the budget allocated.” In addition, OCFO staff told us that they did not
    know if any analyses were performed during FYs 1996 and 1997 to determine
    whether to use the percent change or rebaselining method. For those years, NRC
    continued to establish annual fees using the percent change method. In FY 1998,
    NRC analyzed projected annual fees using both methodologies. However, the
    Agency postponed rebaselining and continued to use the percent change method.

    The FY 1999 fee rule demonstrated the effect of rebaselining after using the percent
    change method for three years. With rebaselining, the FY 1999 annual fees for each
    category increased or decreased from FY 1998 at various rates. For example, the
    Operating Power Reactor annual fee decreased by over 13 percent, while the annual
    fees for Uranium Recovery Class II facilities increased by more than 200 percent.(5)
    During the three-year period of using the percent change method, budgeted costs
    changed, losing the relationship between the cost of services and the fees
    assessed. Thus, the anticipated stability and predictability of the percent change
    method was ultimately negated.

    Because the percent change method is not based on the cost relationship of
    providing services, fees may become inequitable over time. As a result, some
    licensees actually subsidize the costs of other licensees until the next rebaseline




4
    Decreases in the number of licensees does not always result in a corresponding decrease
    in the budget, because the cost of NRC’s programs may not be reduced.

5
    See Appendix III for a summary of the percent change in annual fees for each fee category
    from FY 1998 to FY 1999.

    OIG/99A-01                                                                          Page 3
NRC’s License Fee Development Process Needs Improvement

               method is applied. This situation is compounded when the number of licensees in
               a class decreases during the period NRC uses the percent change method.

       LACK OF FULL COST RECOVERY CRITERIA RESULTS IN NON - COMPLIANCE WITH IOAA

               IOAA authorizes agencies to charge fees for services and things of value. One
               objective of the Act is to efficiently allocate the Nation’s resources by establishing
               charges for special benefits provided that are at least as great as the costs to the
               Government for providing the benefit. IOAA requires that each charge be fair, based
               on the costs to the Government, and based on other relevant facts. NRC uses a
               budget-based approach to compute its hourly rates. We found that the inclusion and
               exclusion of certain costs is inconsistent and is not in compliance with the
               requirements of IOAA guidance to recover full cost. In addition, the Agency does not
               use all of its best available records when developing the hourly rates. Part A of
               Appendix II contains a detailed description of the Part 170 hourly rate calculation.

               NRC Treats Similar Costs Inconsistently

               Office of Management and Budget Circular A-25 (OMB Circular A-25), revised, User
               Charges, provides the guidance to implement IOAA. The guidance states that user
               fees will be sufficient to recover the full cost to the Federal Government of providing
               the service, resource, or good. Furthermore, OMB Circular A-25 states that “ ‘Full
               cost,’ includes all direct and indirect costs to any part of the Federal Government of
               providing a good, resource, or service.” (Emphasis added.)

               We identified two inconsistent treatments of costs in developing the hourly rates.
               Specifically, NRC treats generic costs inconsistently, and inconsistently uses budget
               data to prepare the hourly rates. As a result, the hourly rates are not developed in
               full compliance with the full cost requirements of OMB Circular A-25.

               Inconsistent Treatment of Generic Costs

               By excluding some costs assumed to be generic in the hourly rate calculation, while
               including other costs that are specified as generic, the Agency treats these costs
               inconsistently. For example, by excluding certain contract support costs from the
               hourly rate calculation, the Agency excludes assumed generic costs. This is the
               same finding reported in the FY 1998 financial statement audit.(6) In preparing the
               hourly rates, the Agency made a blanket exclusion of all direct contract support
               dollars from the Program Cost Centers(7). In FY 1998, this was approximately


       6
               Independent Auditors’ Report and Principal Statements for the Year Ended September 30,
               1998 OIG/98A-09, dated, March 1, 1999. This issue is repeated here to provide additional
               information and a more complete analysis of the finding.

       7
               The term “Program Cost Centers” has been used in this report to designate the group of
               cost centers that are not considered Management and Support. In FY 1998, these cost
               centers were components of NRC’s two major Strategic Arenas, “Regulatory Programs”
               and “Regulatory Effectiveness.” Appendix II, page 2 contains a list of the FY 1998 Program

               OIG/99A-01                                                                          Page 4
                                NRC’s License Fee Development Process Needs Improvement

    $70 million of contract support, less costs directly billable to licensees and
    applicants. OCFO officials stated that they exclude these costs because they are
    considered generic costs. They explained that the OBRA-90 Conference
    Agreement, the authoritative guidance for implementing OBRA-90, requires that
    such costs be excluded. However, the Agency did not analyze these contract
    support costs to determine if they are truly generic.

    IOAA does not address generic costs. The source for the term “generic” is the
    OBRA-90 Conference Agreement. A section of the Agreement refers to Part 170
    user fees, and mentions excluding generic costs from the Part 170 collections.
    Although, the Conference Agreement does not explicitly define generic (8) costs, it
    provides specific examples of such costs.

    We found that the Agency includes costs in the hourly rates that were specified as
    generic. Most of the generic costs identified in the Conference Agreement, such as
    the Offices of the Commissioners, the General Counsel, and the Inspector General,
    were included in the hourly rate calculation. Yet, the Conference Agreement states
    that these generic costs were expected to be recovered through the annual fees.
    Thus, identified generic costs that were to be excluded from user fee recovery are
    actually included. As a result, NRC inconsistently includes some “generic” costs
    and excludes others.

    Inconsistent Application of Budget Data

    We also found that the Agency’s use of budget data to develop hourly rates is applied
    inconsistently. The Agency’s approach to preparing the hourly rates uses definitions
    and data originally intended for budget preparation. Budgeted costs are not always
    traceable to billable activities. Instead, they are estimates prepared to obtain
    Congressional funding. We believe that resources classified as direct costs for
    budgetary purposes are not equivalent to the direct costs that should be used for
    billing purposes. In one situation, for example, rent for NRC’s Technical Training
    Center was budgeted as a direct cost and thus was treated as a “billable” direct
    cost. In contrast, rent for NRC’s headquarters, also budgeted as a direct cost, was
    not treated as a billable direct cost.

    Another inconsistency in using budget data is caused by including cost centers that
    do not have billable activities. For example, in FY 1998 most of the direct FTEs (9) for
    the Program Cost Centers were included in the hourly rate, because this was how
    these costs were classified in NRC’s budget. Yet, some cost centers included in the
    Program Cost Centers, such as Enforcement, usually do not provide billable
    services. Therefore, cost centers with and without billable activities were included



    Cost Centers and Management and Support Cost Centers.
8
    The Conference Agreement describes the cost of generic activities as those “that benefit
    licensees generally.”

9
    FTE is the abbreviation for Full-time Equivalency (2,080 labor hours per year).

    OIG/99A-01                                                                           Page 5
NRC’s License Fee Development Process Needs Improvement

               in the calculation. We believe that including resources from cost centers without
               billable activities affects the hourly rate, making it unreliable.

               Over-reliance on budget data without considering the nature of costs also caused
               a significant error in the FY 1998 hourly rate calculation. In the budget, a new cost
               center, Region Management and Support Services, was classified as a Program
               Cost Center. Because of this budget classification, 134 direct FTEs from Region
               Management and Support Services were included in the rate calculation as billable
               direct FTEs. OCFO officials stated that during the preparation of the hourly rates,
               staff did not question why a cost center named “Region Management and Support
               Services” would be considered a Program Cost Center. The Agency did not
               recognize this error until it prepared the FY 1999 hourly rates. The proposed
               FY 1999 fee rule explained this error as the major reason for the $17 and $19 per
               hour increases in the professional hourly rates. (See Appendix IV detailing these
               inconsistencies in the hourly rate calculations.)

               NRC Does Not Use All of the Best Available Data to Develop Rates

               OMB Circular A-25 states that “Full cost shall be determined or estimated from the
               best available records of the Agency, and new cost accounting systems need not
               be established solely for this purpose.” Because NRC does not use actual data to
               validate its hourly rates, the rates developed may be unreliable estimates.

               Although the Agency uses budget data to prepare the rates, actual data from
               previous year’s billings is available and can provide feedback on the reliability of the
               Part 170 full cost estimates. We found that NRC does not assess the
               reasonableness of the hourly rate calculation by using actual billing data collected
               in the Regulatory Information Tracking System (10) (RITS). For example, based on
               estimates of FY 1998 billing data, we estimated that the actual billable FTEs for
               reactor inspections and licensing actions were significantly fewer than the FTE
               estimates used in the reactor hourly rate calculation. Although there are many
               factors that may account for the difference between these two amounts, this
               difference can also indicate that the data used to prepare the hourly rates may not
               be providing valid estimates. For example, as stated in the previous section, NRC’s
               hourly rate calculations also include FTEs from cost centers that do not have billable
               activities.

               It should also be noted that Statement of Federal Financial Accounting Standards
               (SFFAS) No. 4, Managerial Cost Accounting Standards, includes using actual cost
               information in preparing user fees, such as the Part 170 hourly rates. Although the
               standard was in effect beginning FY 1998, the Agency has not implemented it.

               SFFAS No. 4 supports compliance with OMB Circular A-25 and emphasizes that
               “cost information is an important basis in setting fees and reimbursements.” One



       10
               RITS is used to track labor hours in support of inspection and licensing actions. This and
               other systems are used to provide data for the Part 170 fees which are billed.

               OIG/99A-01                                                                            Page 6
                                NRC’s License Fee Development Process Needs Improvement

      purpose of using cost information is to determine reimbursements and to set fees
      and prices.



M ANAGEMENT CONTROLS NEED STRENGTHENING

      Management controls, in the broadest sense, include the organization, methods, and
      procedures adopted by management to ensure that its goals are met. We found that
      weak management controls resulted in fee calculation errors, inconsistent
      processes, and an absence of adequate information. We believe these issues can
      undermine the credibility and integrity of the process.

      According to OMB Circular A-123 revised, Management Accountability and Control,
      “management controls are the organization, policies, and procedures used by
      agencies to reasonably ensure that: (i) programs achieve their intended results;
      (ii) resources are used consistent with agency mission; (iii) programs and resources
      are protected from waste, fraud, and mismanagement; (iv) laws and regulations are
      followed; and (v) reliable and timely information is obtained, maintained, reported,
      and used for decision making.”

      We identified several management control weaknesses that not only affect the
      Agency’s ability to comply with OBRA-90 and IOAA, but can also affect licensee
      perceptions of the Agency’s fee development process. These weaknesses include:
      (1) lack of formal procedures, (2) lack of quality control over the fee calculations, and
      (3) lack of adequate information provided for the Rulemaking public comment period.

      NRC Has No Formal Procedures for Developing License Fees

      We found that there are no formally documented procedures for calculating fees and
      preparing the fee rule. A few informal procedures, accumulated over the years in a
      piecemeal fashion, do exist. However, most of the methodologies for fee calculation
      were passed verbally from individual to individual.

      In FY 1998, there was a change in staffing for the fee rule development process and
      all new staff were assigned to develop the fee rule. The staff members told us that
      it took several months to transfer, orally, the detailed process for calculating the
      professional hourly rates and the annual fees. A new staffer has attempted to
      develop some written methodologies, but at the time we completed our work, only
      the rebaselining method had been completed. This written methodology was used
      in FY 1998 as a guide to prepare the analysis for whether to rebaseline or use
      percent change. Although this written procedure is no longer current, it does provide
      a framework on which NRC could base other procedures. Currently, there are no
      written procedures for preparing the hourly rates or for preparing the annual fees
      using the percent change method.




      OIG/99A-01                                                                         Page 7
NRC’s License Fee Development Process Needs Improvement

               Without formal procedures, the transition from FYs 1997 to 1998 was difficult and
               challenging for the new staff, and the entire process was an intensive learning
               experience for all the parties. There are only a few individuals familiar with the
               process of calculating fees and primarily two individuals prepare the entire fee rule
               and rate calculations. We found that the FY 1998 rate calculations contained several
               errors, some of which were not identified until NRC developed the FY 1999 fee rule.
               Formally documented procedures would not only have made the transition
               smoother, but also would have provided guidance for quality control reviews which
               could have identified the errors.

               License Fee Calculations Lack Adequate Quality Control

               We believe a significant management control weakness exists due to the lack of a
               quality control process or procedures for the fee calculations. Since the FY 1998
               change in staffing, NRC has not performed an objective review of the calculations
               to detect errors and ensure they were prepared correctly.

               We found that inadequate review resulted in errors not being identified and
               inconsistencies in the two fee calculations (hourly rate and percent change method)
               prepared for FY 1998. In the hourly rate calculation, the Agency identified an error
               related to the inclusion of Region Management and Support Services. This error,
               discussed previously on page 6, was not identified until one year later, when the
               Agency prepared its FY 1999 fee rule. The effect of the error was a substantial
               increase in the hourly rates, as described in the FY 1999 proposed fee rule.

               Other inaccuracies in the hourly rate and percent change calculations also existed.
               For example, we identified an error in the FY 1998 percent change method, which
               caused the percent change to be a higher factor than it should have been. The
               percent change method relies on a fairly simple set of calculations compared to the
               rebaseline and hourly rate calculations. During our review, we noted that a column
               of three numbers was added incorrectly. This resulted in a higher percent factor
               than if that column were added correctly. As a result, for those licensees with
               relatively high annual fees, the FY 1998 annual fees were greater than they would
               have been. For example, we recalculated the percent change after correcting the
               error and found that each Power Reactor annual fee was approximately $11,000
               more per license because of this error. While the amount of the overcharge does
               not seem significant in relation to the total reactor annual fee (about $3 million), we
               believe it reflects negatively on NRC’s integrity and process. Furthermore, a basic
               quality control process would have disclosed this error.

               With the exception of the Region Management and Support Services
               misclassification, OCFO management was not aware of these errors until we
               brought them to their attention. An OCFO official confirmed that there was no quality
               control process and that there was no detailed review of the fee calculations
               prepared for the fee rule.




               OIG/99A-01                                                                       Page 8
                                     NRC’s License Fee Development Process Needs Improvement

         Information Provided During the Public Comment Period Was Inadequate

         During the public comment period, NRC makes its workpapers supporting the fee
         rule available for examination in NRC’s Public Document Room. This information
         is intended to facilitate public understanding when submitting comments to the rule.
         The Administrative Procedure Act requires that this information be made available.
         Because a critical document was withheld from the FY 1998 fee rule workpapers,
         we believe it would have been difficult, if not impossible, for the public to understand
         NRC’s calculations.

         We found that NRC omitted a key document linking the budget to the fee calculations
         from the workpapers which were made available to the public for FY 1998. This
         document was the spreadsheet used to allocate the budgeted costs to the classes
         of licensees. This is the first step in the hourly rate calculation, but also provides the
         basis for rebaselining annual fees. Although it was only one document, it was the
         only document that would have shown the relationships between the restructured
         budget and the fee rates. NRC omitted the document because the Agency used it
         as part of the deliberative process for making the decision on whether to rebaseline
         and considered it to be pre-decisional(11) information. During our analysis of the
         hourly rates, we were not able to determine how the fees were developed without
         this document.       We believe the public would have had similar difficulties in
         reviewing the calculations.

         In a 1974 court case concerning the exclusion of certain data from the public record,
         the District of Columbia Circuit Court stated “[i]t is not consonant with the purpose
         of a rule-making proceeding to promulgate rules on the basis of inadequate data, or
         data that, [in] critical degree is known only to the agency.” Using a Freedom of
         Information Act exemption to withhold pre-decisional information is provided under
         the deliberative process privilege. However, when a withheld document, such as the
         spreadsheet, is crucial to the public’s understanding of NRC’s process and
         determination, we believe the Agency has a duty to note in the workpapers that they
         did not provide such a document. Public commenters could then contact the
         Agency to determine other avenues to obtaining a full understanding of NRC’s
         decisions. We believe that omitting key documents or additional information without
         placing a marker in the workpapers hinders the public’s ability to make informed
         decisions about NRC’s fee development policies.

CONCLUSION

         The lack of sound criteria to manage and monitor the development and
         implementation of license fee rules and rates has led to potential non-compliance
         with the intent of OBRA, non-compliance with IOAA, errors in fee rate calculations,
         and inadequate information during the public comment period.



    11
         Pre-decisional information is protected by the Freedom of Information Act, Exemption 5,
         under the deliberative process privilege, and therefore may be withheld from release to the
         public.

         OIG/99A-01                                                                             Page 9
NRC’s License Fee Development Process Needs Improvement

               Using the percent change method over time, without regular analysis, does not
               resolve the instability of annual fees. It merely delays it. Prolonged use may conceal
               the shifts in budget classifications, as well as decreases in the number of licensees.
               Because the relationships between fees and the cost of providing services can
               deteriorate over a period of time, this method will affect compliance with OBRA-90.

               NRC’s criteria for recovering full cost under IOAA and OMB Circular A-25 is generally
               inadequate. NRC considers and treats generic costs inconsistently, treats budget
               costs as direct billable costs inconsistently, and does not consider actual cost data
               when setting hourly rates. As a result, NRC does not recover full cost as required
               by IOAA and OMB Circular A-25.

               Finally, inadequate management oversight has led to weak management controls
               over this vital Agency process. Weak management controls have led to inconsistent
               processes and procedures, inadequate quality control, and resulted in fee calculation
               errors. While no process can be expected to be completely error free, strong
               management controls would have mitigated the matters disclosed.

               We believe these issues erode the credibility of the Agency’s ability to prepare and
               calculate fees that fully reflect the intent of appropriate legislation. Strengthening the
               management of this process by instituting appropriate criteria, controls, and
               oversight would ensure that the fees are developed in compliance with pertinent laws
               and regulations and reduce potential litigation risks.

RECOMMENDATIONS

               NRC must revisit its policies, procedures, and processes for developing license fees
               and their associated calculations. To fully meet the intent of OBRA-90, address the
               IOAA noncompliance issue, and to establish effective management controls over the
               license fee development process, we recommend that the Chief Financial Officer
               (CFO) reevaluate each step or phase of the license fee development process to
               include:

               1.      Using the percent change method for fee calculation only after conducting an
                       annual pro-forma rebaselining analysis. The CFO should develop specific
                       thresholds to determine substantial changes at the fee classification level
                       and use these thresholds in making a decision on which method to use for
                       calculating annual fees.

               2.      Reevaluating the hourly rate calculation methodology so that the rates NRC
                       develops include the full cost concept as embodied in OMB Circular A-25
                       and SFFAS No. 4. The reassessment should (a) define and identify generic
                       costs and explain how to treat such costs, (b) establish a policy that clearly
                       defines direct resources and how such resources should be treated in fee
                       calculations, and (c) use actual billing and cost data to develop and refine
                       future rate calculations.

               3.      Developing formal criteria and procedures that (a) implement
                       recommendations one and two, (b) describe the fee development process

               OIG/99A-01                                                                         Page 10
                                  NRC’s License Fee Development Process Needs Improvement

                and steps, (c) ensure consistency of fee calculations, and (d) provide quality
                control procedures for fee calculation.


OIG COMMENTS ON AGENCY RESPONSE

        On December 1, 1999, the Chief Financial Officer (CFO) and the General Counsel
        (GC), responded to our draft report. Their response is included, in its entirety, in
        Appendix VI. In addition to addressing each of our recommendations, the CFO and
        GC provided a detailed legal analysis of our findings. With respect to this analysis,
        we believe that the legal arguments set forth by the CFO and GC tend to obfuscate
        the basic programmatic and management control issues we are surfacing. Further,
        we believe that the responses to our recommendations do not fully address the
        programmatic and control weaknesses we identified. Our recommendations are
        intended to bring discipline and structure to a process with weak management
        controls. With the exception of subpart (b) to Recommendation 3, all
        recommendations and their subparts will remain open.                 Each of the
        recommendations, the CFO/GC comments, and our analysis of those comments
        follows:


        Recommendation 1:

        Using the percent change method for fee calculation only after conducting an annual
        pro-forma rebaselining analysis. The CFO should develop specific thresholds to
        determine substantial changes at the fee classification level and use these
        thresholds in making a decision on which method to use for calculating annual fees.


        CFO/GC response: Agree in part.

        Based on the on-going efforts at the time of the proposed FY 1999 fee rule
        development and comments received from the Commission, the OCFO plans, as
        part of each year’s fee rule development and Commission paper, to conduct an
        analysis based on percent change and rebaselining. As you are aware, this was
        done for both the FY 1998 and FY 1999 fee rules to assist the Commission in
        establishing the fee policy for those years. Those preliminary numbers will be
        provided with the CFO’s recommendation as to which method to use for each fiscal
        year and will take into consideration all other policy issues which may affect the fee
        rule. Whether to use the percent change method or whether to rebaseline is a policy
        judgement to be made only after evaluation and consideration of the many factors
        involved. While we could consider establishing numerical thresholds for the various
        fee classifications, we do not believe numbers alone should be the determining
        factor as to when to rebaseline. We believe establishment of mechanical numerical
        thresholds would eliminate the Commission judgement




        OIG/99A-01                                                                     Page 11
NRC’s License Fee Development Process Needs Improvement

               needed to develop fair fee schedules that take into account all pertinent
               considerations. Therefore, the OCFO does not plan to recommend to the
               Commission that the NRC establish thresholds which would form the bases of when
               to rebaseline.


               OIG Analysis:

               Although OCFO agrees “in part,” nevertheless, they will not develop rebaselining
               thresholds. Neither the direct response to the recommendation nor the detailed legal
               arguments provided any data analysis to demonstrate that NRC fees, in fact, bear
               a reasonable relationship to the costs. Our analysis of OCFO’s data clearly
               demonstrated that by FY 1998, the relationship between fees and costs had
               deteriorated. Because our report does not recommend specific numeric thresholds,
               OCFO could develop a range as a threshold guide for when rebaselining should be
               required. We do not accept NRC’s criteria that “substantial change in the NRC’s
               budget or magnitude of the budget allocated to a specific class of licensee...” is
               adequate to exert effective management over this vital agency process. Therefore,
               we continue to believe that developing and using thresholds to determine substantial
               changes at the fee classification level would support any Commission decisions to
               rebaseline and ensure the methodology used remains within the requirements of the
               law.


               Recommendation 2:

               Reevaluating the hourly rate calculation methodology so that the rates NRC develops
               include the full cost concept as embodied in OMB Circular A-25 and SFFAS No. 4.
               The reassessment should (a) define and identify generic costs and explain how to
               treat such costs, (b) establish a policy that clearly defines direct resources and how
               such resources should be treated in fee calculations, and (c) use actual billing and
               cost data to develop and refine future rate calculations.


               CFO/GC response: Agree in part.

               We agree with the OIG’s recommendation that we examine the existing approach
               for developing fees to determine if the approach can be improved in a cost-effective
               manner.

               As indicated in the CFO’s February 25, 1999 response to Recommendation 7 of the
               Draft Audit Report - Audit of the NRC’s Fiscal Year 1998 Financial Statements,
               OCFO formed a multi-office team to study the generic costs to determine whether
               the costs currently identified as “generic” continue to meet the definition contained
               in the Conference Report to the Omnibus Budget Reconciliation Act. The OCFO
               expects to issue a report on the study in early December 1999. After you have
               reviewed the report, if you still have concerns that we are not complying with the
               requirements of IOAA, it is important that we meet and discuss this issue further.
               Therefore, since we continue to dispute your findings with regard to the calculation

               OIG/99A-01                                                                     Page 12
                          NRC’s License Fee Development Process Needs Improvement

of the hourly rate, OCFO will not be implementing your recommendations with
regard to how the hourly rate calculations are determined at this time, nor do we plan
to modify the methodology employed.

In the meantime, OCFO has entered into a contract with an outside professional
accounting firm for an analysis of the current fee model for development of
alternatives for determining whether there are cost-effective methods to improve the
allocation of the budget for fee purposes. Until this effort is completed, we do not
expect to use actual billings and cost data to develop and refine future rate
calculations. Definitions, identification and treatment of generic costs, and
establishment of a policy that more clearly defines resources and how they should
be treated in the fee calculations, including any changes resulting from the analysis,
will be included in the documentation of the fee development process described in
our response to Recommendation 3 below.


OIG Analysis:

The response states that OCFO agrees “in part” with our recommendation.
However, our recommendation does not address examining “...the existing approach
for developing fees to determine if the approach can be improved in a cost-effective
manner.” Rather, our point is that NRC’s fee development process does not
embody the full cost recovery principles espoused by IOAA and OMB Circular A-25.

For subpart (a), OCFO expects to issue a report addressing the generic cost issue
in early December. Although OCFO indicates that their report will “determine
whether the costs currently identified as generic continue to meet the definition
contained in the Conference Report,” there is no such definition in the Conference
Report. Therefore, subpart (a) will remain open until we receive OCFO’s report and
evaluate its effect on our recommendation.

Although the response to subparts (b) and (c) states that “OCFO will not be
implementing your recommendation with regard to how the hourly rate calculations
are determined at this time, nor do we plan to modify the methodology employed,”
it also states OCFO has engaged a contractor to evaluate the current fee model.
These statements contrast with an earlier statement made on page 9 of the
comments. That statement asserts that “...we find nothing in SFFAS 4 that would
require the agency to use actual cost accounting data to prepare the hourly rates.”
It is not clear how the contractor effort will address our specific concerns about full
cost recovery under IOAA for NRC Part 170 fees. As a result, subparts (b) and (c)
of this recommendation will remain open until we determine that NRC has taken
effective corrective actions.




OIG/99A-01                                                                      Page 13
NRC’s License Fee Development Process Needs Improvement

               Recommendation 3:

               Developing formal criteria and procedures that (a) implement recommendations one
               and two, (b) describe the fee development process and steps, (c) ensure
               consistency of fee calculations, and (d) provide quality control procedures for fee
               calculation.


               CFO/GC response: Agree in part.

               For subpart (a), OCFO will develop any necessary criteria and procedures for those
               portions of Recommendations 1 and 2 with which we agree. For subpart (b), OCFO
               has developed a Request for Proposal to have a contractor document the fee
               development process. We estimate it will be completed by September 30, 2000.
               For subpart (c), we believe there is consistency in the current fee calculations and
               that future fee rules will have consistent fee treatment. As for subpart (d), OCFO
               already provides quality assurance reviews for fee calculations commensurate with
               available staff resources and the short time frame for fee rule development.
               However, as with all our financial activities, we will strive to improve the quality
               assurance and quality control of the fee rule development process. Our QA process
               will be included in the documentation of the fee development process previously
               discussed.


               OIG Analysis:

               OCFO agrees “in part.” For part (a) the response says that “OCFO will develop any
               necessary criteria and procedures for those portions of Recommendations 1 and 2
               with which we agree.” While OCFO did agree to annually analyze fees using the
               percent change and rebaselining methods, OCFO did not agree to establish
               thresholds and, therefore, will not establish relevant criteria. Further, OCFO action
               to ensure full cost recovery under IOAA and OMB Circular A-25 remains unclear.
               As a result, subpart (a) will remain open until such time as we believe that corrective
               action is taken.

               For subpart (b), OCFO plans to have a contractor document the fee development
               process. This process must include documenting the policy and procedures for
               providing information to the public. As stated in the report, the public information
               provided for the FY 1998 fee rule was inadequate; NRC should ensure that the public
               has adequate information upon which to base informed decisions. Should the NRC
               decide to exclude such information for legitimate reasons, we believe the Agency
               has a duty to inform the public that they did not provide the information. This would
               allow the public to determine other avenues of obtaining an understanding of NRC’s
               decisions. Despite the extensive legal analysis provided, we believe that the
               commitment “...to assure that there is sufficient information made available to the
               public” satisfies the intent of our recommendation.

               For subpart (c), OCFO disagrees with our recommendation because they believe
               there is already consistency in fee calculations. As explained in our report, we found

               OIG/99A-01                                                                      Page 14
                          NRC’s License Fee Development Process Needs Improvement

several inconsistencies in the calculations for Part 170 fees. OIG and OCFO staff
have discussed this issue several times without resolution. We believe OCFO
should seek an outside source to verify the concept of full cost recovery as it relates
to IOAA and Part 170 fees. Subpart (c) of this recommendation will remain open
until corrective action is taken.

For subpart (d), the response states that “OCFO already provides quality assurance
reviews for fee calculations commensurate with available staff resources and the
short time frame for fee rule development.” As stated in the report, some of the
errors were obvious and we found them simply by looking at the data provided. No
intricate calculations or computations were required. Additionally, an OCFO official
told us that license fee calculations were not reviewed prior to placing them in the
public document room with the fee rule package. The quality assurance process for
license fee calculations is clearly not adequate. Therefore, subpart (d) of this
recommendation will remain open until NRC takes corrective action.




OIG/99A-01                                                                      Page 15
                                                                                    Appendix I
                                  NRC’s License Fee Development Process Needs Improvement

OBJECTIVES, SCOPE, AND METHODOLOGY

         The objectives of our review were to determine: (1) if the fee development process
         complies with pertinent laws and regulations, and (2) if there are adequate
         management controls over the fee development process. We limited the scope of
         the audit to the fee development process, including the calculations used to prepare
         the rates and fees under the Code of Federal Regulations, Title 10 Parts 170 and
         171 for fiscal years (FYs) 1995 through 1999.

         To accomplish these objectives, we reviewed: the Omnibus Budget Reconciliation
         Act of 1990 (OBRA-90); the OBRA-90 Conference Agreement; the Independent
         Offices Appropriation Act of 1952 (IOAA); Office of Management and Budget (OMB)
         Circular A-25; and the legislation and guidance for Rulemaking related to the
         Administrative Procedure Act. In addition, we interviewed officials from the Office of
         the Chief Financial Officer (OCFO), OMB, and the Nuclear Energy Institute.

         To gain an understanding of how NRC derived the rates and to develop the
         description of those processes presented in Appendix II, we analyzed each of the
         calculations from the OCFO workpapers and pre-decisional information as follows:
         (1) we used the FY 1998 fee rule workpapers and additional supporting
         documentation for the hourly rate calculations; (2) we used the FY 1996, 1997, and
         1998 workpapers for the percent change methodology; and (3) we analyzed the
         rebaseline methodology using the FY 1995 workpapers, FY 1998 pre-decisional
         data, and FY 1999 workpapers. Each of the methodologies described in Appendix II
         was reviewed by OCFO staff for accuracy and verification.

         We conducted our work from November 1998 to April 1999 in accordance with
         generally accepted Government auditing standards and included such tests of the
         data and records as we considered necessary.




         OIG/99A-01                                                                  Page 1 of 1
                                                                                         Appendix II
                                          NRC’s License Fee Development Process Needs Improvement

FEE CALCULATION METHODOLOGIES


                                   Fee Calculation Overview

                                         FY Budget



                      Part 170                                 Part 171
                    Hourly Rates                              Annual Fees




       Budget Allocation
         to Classes of
        Licensees and                       Determine if Annual Fees need to be
          Classes of                                     Rebaselined
          Surcharges




                                                                           Decide
                                            Decide                          NOT
                                         to Rebaseline                  to Rebaseline




           Calculate                      Calculate                 Calculate Annual
      Professional Hourly               Annual Fees                   Fees by the
             Rates                         by the                   Percent Change
                                      Rebaseline Method                 Method
          See Part A of                  See Part B of                  See Part C of
           Appendix                       Appendix                       Appendix




          OIG/99A-01                                                                      Page 1 of 8
Appendix II
NRC’s License Fee Development Process Needs Improvement

A.     PROFESSIONAL HOURLY RATE M ETHODOLOGY FOR PART 170 FEES

       The professional hourly rates are developed using a budget resource approach. They are
       developed whether annual fees are established by rebaselining or by the percent change
       method. But when the Agency rebaselines, one of the products of the hourly rate calculation
       is the framework of allocated costs that form the cost pool for each licensee class.

       NRC uses three functions to prepare the budget. These are 1) Salaries and Benefits for full-
       time equivalents (FTE), 2) Contract Support, and 3) Travel. Each of these functions
       includes direct resources and/or overhead. In the hourly rate calculation, all travel costs are
       treated as overhead.

       A resource is included in the hourly rate calculation depending on which cost center(1) it was
       budgeted to. Using fiscal year (FY) 1998 as an example of how the rates are calculated, the
       Nuclear Regulatory Commission’s (NRC) budget was divided into two subsets of 13 cost
       centers, as follows:

       I       Program (2) Cost Centers
               1. Nuclear Reactor Regulation
               2. Nuclear Material Safety and Safeguards
               3. State Programs
               4. Region Management and Support Services
               5. Nuclear Regulatory Research
               6. Analysis and Evaluation of Operational Data
               7. Enforcement
               8. Investigations

       II      Management and Support (M&S) Cost Centers
               1. Management Services
               2. Chief Information Officer
               3. Chief Financial Officer
               4. Policy Support
               5. Inspector General




       1
               As of FY 2000, the term "cost center" is no longer used. The comparable budget level now
               used is called "Program/Organization."

       2
               The term “Program cost centers” has been used in this report to designate the group of
               cost centers that are not considered Management and Support. In FY 1998, these cost
               centers were components of NRC’s two Strategic Arenas, “Regulatory Programs” and
               “Regulatory Effectiveness.” In FY 2000, NRC restructured its budget to include four
               Strategic Arenas.

               OIG/99A-01                                                                      Page 2 of 8
                                                                                        Appendix II
                                         NRC’s License Fee Development Process Needs Improvement

Step 1       Budget Allocation of Program Cost Centers

             The first step is the allocation of budgeted costs. This allocation also provides the
             framework for rebaselining. During this step, budgeted direct costs from the
             Program Cost Centers are allocated to the classes of licensees, or to classes of
             surcharge activities, or to high level waste (HLW).

                     - Direct Costs
                     In FY 1998, each budgeted direct cost (FTE and Program Support(3)) was
                     allocated to nine classes of licensees, or to eight classes of surcharge
                     activities, or to a HLW class. The bases for each cost allocation vary and
                     depend on input from each Program Cost Center, or other information. The
                     classes used for FY 1998, were as follows:

                     I      Reactor Hourly Rate Pool
                            1. Power Reactor
                            2. Non-power Reactor

                     II     Materials Hourly Rate Pool
                            3. Fuel Facility
                            4. Spent Fuel
                            5. Materials
                            6. Transportation
                            7. Rare Earth Facilities
                            8. Uranium Recovery
                            9. Reviews of Other Applicants

                     III    Surcharge Activities
                            1. Federal Exemption
                            2. Nonprofit Exemption
                            3. International Activities
                            4. Agreement State Oversight
                            5. Agreement State Regulatory Support
                            6. Site Decommissioning Management Plan (SDMP)
                            7. Generic Decommissioning/Reclamation
                            8. Generic Low Level Waste

                     IV     High Level Waste Budget

Step 2       Hourly Rate Pools

             Three hourly rate pools are formed. The classes of licensees are combined to form
             two pools, Reactor and Materials. The third pool, Surcharge, is used to collect
             budgeted costs for surcharge activities. Budgeted HLW costs are not used in the


         3
             “Program Support” is synonymous with “Contract Support.”

             OIG/99A-01                                                                  Page 3 of 8
Appendix II
NRC’s License Fee Development Process Needs Improvement

               hourly rate calculation, because the Omnibus Budget Reconciliation Act of 1990
               (OBRA-90) excludes Nuclear Waste Fund resources from cost recovery. The
               costs accumulated in both the Surcharge pool and the HLW class are eliminated
               from the hourly rates.

Step 3         Overhead Allocation

               After the pools are established, budgeted overhead is allocated from each cost
               center.

                       - Overhead
                       Budgeted overhead costs are allocated to the Surcharge pool based on the
                       percentage of direct costs in each cost center and the Surcharge pool. The
                       remaining budgeted overhead costs for each Program Cost Center are
                       allocated to the Reactor and Materials pools based on the ratio of direct FTE
                       costs within each pool.

Step 4         Exclusion of Direct Costs from M&S Allocation Amount

               With few exceptions, the costs from M&S cost centers are allocated to each of the
               hourly rate pools. But those M&S costs that are directly related to the Reactor and
               Materials or Surcharge programs are excluded from the M&S allocation and included
               as direct costs of each hourly rate pool.

                       - Direct Costs and Overhead
                       All costs from the M&S cost centers are combined to arrive at a single M&S
                       amount. There are a few offices within the M&S cost centers that were
                       identified as providing, or supporting, Part 170 billable activities. In FY 1998,
                       these offices provided direct resource estimates to be included with the
                       direct resources. The M&S total is adjusted (by reducing it) for the direct
                       resources, while the direct resources for each pool are increased in total by
                       the same amount.

Step 5         M&S Allocation

               Using the total direct FTE and overhead costs from the Program Cost Centers
               (including the direct M&S costs), the remaining M&S is allocated to each hourly rate
               pool based on the ratio of the direct and overhead costs for each rate pool.

Step 6         Annual Professional Rate Calculation

               Total costs (excluding Program contract support) for each of the Reactor and
               Materials pool are calculated. These costs include direct salary and benefits,
               allocated overhead, and allocated M&S. Each total is then divided by the number of
               direct FTE for the Reactor or Materials pool to obtain two average professional FTE
               annual rates, one for Materials and one for Reactors. (Total costs ÷ direct FTE =
               average annual professional rate.) In FY 1998, the average annual professional FTE

               OIG/99A-01                                                                     Page 4 of 8
                                                                                    Appendix II
                                     NRC’s License Fee Development Process Needs Improvement

         rate for Reactors was $219,901 and for Materials was $214,185. Below is a
         summary of each component used in the FY 1998 calculation.

                 - Total costs for Reactor (excluding all direct contract support)
                 The total cost used to calculate the Reactor annual professional rate was
                 $260,883,351. This total included direct salary and benefits (from the direct
                 FTE), allocated overhead, and allocated M&S. It did not include any direct
                 contract support other than those costs included in the allocated M&S. The
                 direct contract support costs are recovered through either directly to
                 individual licensees through Part 170 billings, or through annual fees
                 assessed under Part 171.

                 - Direct FTEs for Reactor
                 The number of direct FTE for Reactors was approximately 1,186. These
                 include FTEs from seven Program Cost Centers and one Management and
                 Support Cost Center as follows: Nuclear Reactor Regulation, Nuclear
                 Material Safety and Safeguards, Region Management and Support Services,
                 Nuclear Regulatory Research, Analysis and Evaluation of Operational Data,
                 Enforcement, Investigations, and Policy Support.

                 - Total costs for Materials (excluding all direct contract support)
                 The total cost used to calculate the Materials annual professional rate was
                 $57,254,676. This total included direct salary and benefits (from the direct
                 FTE), allocated overhead, and allocated M&S. It did not include any direct
                 contract support other than those costs included in the allocated M&S. The
                 direct contract support costs for Materials are recovered similarly to those
                 for Reactors.

                 - Direct FTE for Materials
                 The number of direct FTE for Materials was approximately 267. These
                 include FTEs from six Program Cost Centers and one Management and
                 Support Cost Center as follows: Nuclear Material Safety and Safeguards,
                 Region Management and Support Services, Nuclear Regulatory Research,
                 Analysis and Evaluation of Operational Data, Enforcement, Investigations,
                 and Policy Support.

                 - Surcharge
                 Although not included in the professional hourly rates published in Part 170,
                 a separate Surcharge hourly rate, is developed and used to calculate
                 Surcharge when rebaselining.

Step 7   Professional Hourly Rate Calculation




         OIG/99A-01                                                                  Page 5 of 8
Appendix II
NRC’s License Fee Development Process Needs Improvement

                The Professional hourly rate is calculated by dividing the Professional annual rate by
                1,776 hours (from OMB Circular A-76(4)). In FY 1998, the Professional hourly rate
                for Reactors was $124 and for Materials was $121.

B.       REBASELINING M ETHODOLOGY FOR PART 171 ANNUAL FEES

         The rebaselining method allocates costs to the various classes of licensees, establishing
         a relationship between budgeted costs and the classes of licensees. The fees developed
         from the rebaselining method become the base fees on which percent change is calculated
         in subsequent years.

Step 1          Budget Allocation of Program Cost Centers

                The first step is the allocation of budgeted costs. This is also the first step in the
                hourly rate calculation. During this step, budgeted direct costs from the Program
                Cost Centers are allocated to the classes of licensees, or to classes of surcharge
                activities, or to HLW.

Step 2          Classification Totals

                For each class of licensee, the direct contract support costs are combined to form
                a total for that class. And similarly, the direct FTEs are combined to form a total for
                each class.

Step 3          FTE Conversion to Dollars

                The total direct FTEs are converted to dollar amounts by multiplying by the annual
                professional FTE rate. For example, in FY 1998, the annual reactor FTE rate of
                $219,901 would have been used for the Power reactor classes and the annual FTE
                rate of $214,185 would have been used for the Materials classes.(5) An annual FTE
                rate calculated for surcharge activities would also be used to convert Surcharge
                FTEs to dollar amounts. Using the annual professional FTE rates to convert FTEs
                also serves to allocate overhead and M&S costs to each class of licensee.

Step 4          Annual Fee Amounts

                The converted FTE and Direct Program support dollars are combined for each class
                of licensee to arrive at a total, or base fee amount, for each class.

Step 5          Part 170 Billing, Allocation of Surcharge, and Other Adjustments



         4
                OMB Circular A-76, “Performance of Commercial Activities.”

         5
                In FY 1998, the Agency did not rebaseline, but used the percent change methodology to
                calculate the annual fees.

                OIG/99A-01                                                                    Page 6 of 8
                                                                                            Appendix II
                                             NRC’s License Fee Development Process Needs Improvement

                From the base fee amount, estimated Part 170 collections for each class are
                deducted to arrive at the amount to be collected for each class from Part 171.
                Surcharge costs are allocated to each class of licensee based on the percent of
                base fee amount for each class. Additional adjustments, such as billing
                adjustments, are made to arrive at the total amount to be collected for each class
                under Part 171.

Step 6          Fee Categories

                Most classes of Materials licensees are subdivided into license fee categories. The
                method used to allocate costs to the fee categories varies for each class. For
                example, in FY 1995, costs for the Fuel Cycle Facilities class were allocated to the
                fee categories based on a matrix depicting license authorization and the relative
                programmatic effort associated with each category.


C.       PERCENT CHANGE M ETHODOLOGY FOR PART 171 ANNUAL FEES

         The percent change method was established to allow for some predictability for licensees,
         because their annual fees would change in synchrony with changes in NRC’s total budget.
         Unlike rebaselining where each class of licensee may have a different percentage change
         from the previous year, the percent change method results in all licensees annual fees
         changing by the same percentage. In theory, for example, if the budget decreased by
         5 percent, a licensee could expect their annual fee to similarly decrease by approximately
         5 percent.

         The percent change method requires a base year where annual fees are established using
         the rebaselining method. Base annual fees were established in FY 1995. In FYs 1996
         through 1998, annual fees were adjusted based on the total changes in each fiscal year’s
         budget and other adjustments.

         In general, the percent change calculation is fairly simple. Using the Budget amount to be
         recovered through fees (NRC Budget Authority less amounts appropriated for the Nuclear
         Waste Fund and the General Fund), the change from the previous fiscal year to the current
         year is calculated. This amount is reduced by the change in the amount of Estimated Part
         170 collections and other receipts. That result is further adjusted by the differences in Part
         171 Billing Adjustments (such as the Small Entity Allowance, Unpaid Part 171 Bills, and
         Payments from Prior Year Part 171 Bills) between the two fiscal years. After the billing
         adjustments are made, there is an adjustment for the number of licenses. This adjustment
         is subtracted from (or added to) the subtotal to arrive at the Total Percent Change, the factor
         used to adjust all Part 171 annual fees.

         The Total Percent Change factor is applied to each annual fee category by multiplying the
         previous fiscal year fee by the percent change to arrive at the current year’s annual fee. The
         resulting number is rounded for the final fee to be published. The following steps (on page
         8) are used to calculate the percent change:


                OIG/99A-01                                                                    Page 7 of 8
Appendix II
NRC’s License Fee Development Process Needs Improvement




Step 1           Calculation of the Percent Change factor
                 (Percent Adjustment Calculation)

                         NRC Budget Authority
         Less:           Appropriations from the Nuclear Waste Fund
         Less:           Appropriations from the General Fund
         Equals:         Budget amount to be recovered through fees*

         Less:           Estimated amount to be recovered through Part 170 and other receipts*
         Add:            Net Billing Adjustments*
                         Total amount to be recovered through Part 171*

         *For each of the lines starting with the Budget amount to be recovered through fees and
         those below it, the difference is calculated between the previous fiscal year amounts and the
         current fiscal year amounts. These differences are summed up and:

         Divided by:     Previous Fiscal Year Total amount to be recovered through Part 171
         Equals:         Percent Change prior to the adjustment for the number of licenses

         Adjustment:     Factor for the change in the number of licenses
         Equals:         Total Percent Change Factor to be applied to all annual fees

Step 2           Applying the Percent Change Factor to the fee categories
                 (Determination of Annual Fees calculation which includes rounding)

         Previous FY annual fee (exact $ amount)
         x    Percent Change Factor
         Current FY annual fee (exact $ amount)

Step 3           Rounding the annual fees

         The exact $ amount for the Current FY annual fee is rounded before it is issued as the final
         fee amount. Depending on its size, the amount will be rounded differently (e.g. fees under
         $1,000 should be rounded to the nearest $10, fees that are greater than $1,000 should be
         rounded to the nearest $100).




                 OIG/99A-01                                                                 Page 8 of 8
                                                                                     Appendix III
                                      NRC’s License Fee Development Process Needs Improvement

SUMMARY OF PERCENT CHANGES FOR ANNUAL FEES FROM
FY 1998 TO FY 1999

     Using the proposed FY 1999 fee rule, we extracted a portion of a table prepared by OCFO
     demonstrating the change by percentage in the annual fees from FY 1998 to FY 1999 after
     rebaselining.

                  PERCENT INCREASE OR DECREASE IN ANNUAL FEES FOR FY 1999
                                                   FY 1998     FY 1999            Percent
                                                Annual Fee Annual Fee           Increase or
   License Fee Category                          (Rounded) (Rounded)             Decrease
REACTORS:
   Power                                            2,976,000   2,570,391              -13.63%
   Non-power                                           57,300      85,855               49.83%
FUEL FACILITIES & SNM:
   HEU                                              2,604,000   3,281,000               26.00%
   LEU                                              1,278,000   1,100,000              -13.93%
   Limited Fuel Fab                                   508,000     432,000              -14.96%
   All Other Fuel Fab                                 345,000     314,000               -8.99%
   Independent Spent Fuel Storage                     283,000         N/A
   Industrial Gauges                                    1,300       1,200               -7.69%
   All Other SNM                                        3,100       3,300                6.45%
   Uranium Enrichment                               2,604,000   2,043,000              -21.54%
URANIUM RECOVERY & SOURCE MATERIAL:
   UF6 Conversion                                     648,000     472,000             -27.16%
   Class I (Conventional Mills)                        61,700     131,000             112.32%
   Class II (In-situ Mills)                            34,900     109,000             212.32%
   Other (Rare Earth Mills)                            22,300      30,415              36.39%
   Disposal of 11e(2) Materials                        45,300      81,000              78.81%
   11e(2) Disposal Incidental to Operations             8,000      13,000              62.50%
   Shielding                                              490         600              22.45%
   Other Source Materials                               8,700      11,700              34.48%
BYPRODUCT MATERIAL:
   Manufacturing - Broad                               16,600      26,000               56.63%
   Manufacturing - Other                                5,600       6,300               12.50%
   Radiopharmaceuticals - Manuf/Process                11,200      15,300               36.61%
   Radiopharmaceuticals - No Manuf/Process              4,400       3,800              -13.64%




            OIG/99A-01                                                                 Page 1 of 3
Appendix III
NRC’s License Fee Development Process Needs Improvement



                      PERCENT INCREASE OR DECREASE IN ANNUAL FEES FOR FY 1999
                                                    FY 1998      FY 1999       Percent
                                                 Annual Fee Annual Fee Increase or
     License Fee Category                        (Rounded) (Rounded)          Decrease
     Irradiators - Self Shield                           3,200        3,400         6.25%
     Irradiators - <10,000 Ci                            3,800        5,700        50.00%
     Irradiators - >10,000 Ci                           19,700       14,800       -24.87%
     Exempt Distribution - Device Review                 5,000        3,200       -36.00%
     Exempt Distribution - No Device Review              8,900        4,600       -48.31%
     Gen License - Device Review                         3,800        2,100       -44.74%
     Gen License - No Device Review                      3,200        1,700       -46.88%
     R&D - Broad                                        12,300       11,200        -8.94%
     R&D - Other                                         5,500        5,000        -9.09%
     Service License                                     6,100        5,200       -14.75%
     Radiography                                        14,000       14,700         5.00%
     All Other Byproduct Materials                       1,700        2,600        52.94%
 WASTE DISPOSAL & PROCESSING:
     Waste Disposal                                                     N/A
     Waste Receipt/Packaging                            14,500       11,300       -22.07%
     Waste Receipt - Prepackaged                         7,700        8,400         9.09%
 WELL LOGGING:
     Well Logging                                        8,200        9,900        20.73%
     Field Flooding Tracers Studies                                     N/A
 NUCLEAR LAUNDRY:
     Nuclear Laundry                                    14,700       18,900        28.57%
 HUMAN USE OF BYPRODUCT, SOURCE, OR SNM:
     Teletherapy                                        10,300       15,300        48.54%
     Medical - Broad                                    23,500       27,800        18.30%
     Medical - Other                                     4,700        5,800        23.40%
 CIVIL DEFENSE:
     Civil Defense                                       1,800        1,200       -33.33%
 DEVICE, PRODUCT, OR SEALED SOURCE SAFETY EVALUATION:
     Device/Product Safety Evaluation - Broad            7,200        6,000       -16.67%
     Device/Product Safety Evaluation - Other            3,700        4,300        16.22%
     Sealed Sources Safety Evaluation - Broad            1,600        1,800        12.50%
     Sealed Sources Safety Evaluation - Other              780          600       -23.08%



               OIG/99A-01                                                        Page 2 of 3
                                                                                       Appendix III
                                        NRC’s License Fee Development Process Needs Improvement

                  PERCENT INCREASE OR DECREASE IN ANNUAL FEES FOR FY 1999
                                                   FY 1998     FY 1999              Percent
                                                Annual Fee Annual Fee             Increase or
   License Fee Category                          (Rounded) (Rounded)               Decrease
TRANSPORTATION:
   Certificate of Compliance                                0         N/A
   Approvals (Users & Fabricators)                     78,800      66,700               -15.36%
   Approvals (Users Only)                               1,000       2,200               120.00%
OTHER LICENSES:
   Standardized Spent Fuel Facilities                               N/A
   Special Projects                                                   N/A
   Spent Fuel Storage Certificate of Compl                          N/A
   Spent Fuel General License                         283,000         N/A
   Decommissioning/Possession - Only                                  N/A
   Export/Import                                                      N/A
   Reciprocity                                                        N/A
   Master Material License                            421,000     358,000                -14.96%
   DOE Transportation Activities                    1,168,000     872,000                -25.34%
   DOE UMTRCA Activities                            1,964,000     868,623                -55.77%

     SUMMARY

     In the table, there are 50 license categories listed with annual fees. All of the fees changed
     from FY 1998 to 1999 and at different rates. For example, a Power Reactor License
     decreased by 13.63 percent, while the Non-Power Reactor License increased by
     49.83 percent. Of the 50 fee categories, 42, or 84 percent, had a greater than 10 percent
     change (increase or decrease) from FY 1998 to FY 1999. Twenty-three, or 46 percent, had
     a greater than 25 percent change in annual fees.




            OIG/99A-01                                                                   Page 3 of 3
                                                                                    Appendix IV
                                   NRC’s License Fee Development Process Needs Improvement

EXAMPLES OF INCONSISTENCIES IN THE HOURLY RATE CALCULATIONS

         The following are two examples of inconsistencies in the use of budget data to
         prepare the hourly rates. First is the use of budget data without considering of the
         nature of the costs. In fiscal year (FY) 1998, Headquarters rent of $13,216,000 was
         a budgeted direct cost to a Management and Support Cost Center. All Management
         and Support Cost Centers are included in the hourly rate calculations through
         allocation. In contrast, we found that Technical Training Center (TTC) rent of
         $888,000 was a budgeted direct cost for the Analysis and Evaluation of Operational
         Data cost center. Because this cost center was treated as a Program Cost Center
         rather than a Management and Support Cost Center, TTC rent was excluded from
         the full cost calculation on the assumption that contract support dollars are generic.
          Therefore, Headquarters rent was included in the hourly rate calculation while TTC
         rent was excluded from the calculation without regard to the nature of the cost.
         Interestingly, TTC rent was excluded from the hourly rate calculation because the
         Agency considers all direct contract support costs (not recovered directly from
         licensees through Part 170) to be “generic.” Therefore, TTC rent costs were
         excluded from the calculation.

         The following illustrates the inconsistent treatment of budgetary data based on cost
         center classifications. In FY 1998, all of the Program Cost Centers were included
         in the hourly rate as direct costs, because that was how the budget classified these
         cost centers, regardless of whether these cost centers provided billable services.
         Some of the Program Cost Centers do not provide billable services. For example,
         the activities from three budgeted Program Cost Centers, Nuclear Regulatory
         Research, Enforcement, and Investigations are not usually billable Part 170
         services. Yet, most of the budgeted resources, approximately 150 FTE (or $14.7
         million), from these cost centers were included as direct resources when calculating
         the hourly rates. Including these extra resources because they are budget-
         classified in the Program Cost Centers affects the hourly rate.

         In contrast, several activities budget-classified in Management and Support Cost
         Centers were identified as billable direct resources based on the nature of the
         activities. Although this is appropriate to recover full cost for an activity, including
         these costs is inconsistent with using the budget structure for calculation the hourly
         rates. In FY 1998, the costs of approximately $5.4 million (or 53 FTE) were included
         in the hourly rate pools from the offices of the General Counsel, ACRS/ACNW and
         ASLBP activities of the Policy and Support cost center. By moving these costs from
         Management and Support, the contract support dollars of approximately $531,000
         were excluded from the hourly rate, while the 53 FTEs were included. Although
         there could be some billable activities identified in these cost centers, it is
         inconsistent to add these costs, while not evaluating and eliminating cost centers
         that have no billing activities.




         OIG/99A-01                                                                    Page 1 of 1
                                                                                 Appendix V
                                NRC’s License Fee Development Process Needs Improvement



ABBREVIATIONS AND ACRONYMS

         ACNW         Advisory Committee on Nuclear Waste

         ACRS         Advisory Committee on Reactor Safeguards

         ASLBP        Atomic Safety and Licensing Board Panel

         CFR          Code of Federal Regulations

         DOE          Department of Energy

         FTE          Full-time Equivalents (2,080 labor hours per year)

         FY           Fiscal Year (October 1 through September 30)

         HEU          High Enriched Uranium

         HLW          High Level Waste

         IOAA         Independent Offices Appropriation Act of 1952

         LEU          Low Enriched Uranium

         LFARB        License Fee and Accounts Receivable Branch, OCFO

         M&S          Management and Support

         NRC          Nuclear Regulatory Commission

         OBRA-90      Omnibus Budget Reconciliation Act of 1990, as amended

         OCFO         Office of the Chief Financial Officer

         OIG          Office of the Inspector General

         OMB          Office of Management and Budget

         R&D          Research and Development

         RITS         Regulatory Information Tracking System

         SFFAS        Statement of Federal Financial Accounting Standards



         OIG/99A-01                                                              Page 1 of 2
Appendix V
NRC’s License Fee Development Process Needs Improvement

               SNM            Special Nuclear Material


               TTC            Technical Training Center

               UMTRCA         Uranium Mill Tailings Radiation Control Act of 1978




               OIG/99A-01                                                           Page 2 of 2
                                                                           Appendix VI
                          NRC’s License Fee Development Process Needs Improvement




                                 December 1, 1999



MEMORANDUM TO:                 Thomas J. Barchi
                               Assistant Inspector General for Audits

FROM:                          Jesse Funches                  /s/
                               Chief Financial Officer

                               Karen Cyr                     /s/
                               General Counsel

SUBJECT:                       RESPONSE TO DRAFT AUDIT REPORT ENTITLED
                               “NRC’S LICENSE FEE DEVELOPMENT PROCESS
                               NEEDS IMPROVEMENT”


Thank you for the opportunity to comment on the revised draft report. We appreciate
the work that went into its preparation, the effort made to take into account our reply
to the original draft report, and your willingness to consider our views in response to
some of the issues raised. We, in turn, have made a conscientious attempt to
address each of these issues but we still are not in complete agreement with many
of the key aspects of your report. We remain convinced that we operate in
compliance with both the letter and the spirit of the Omnibus Budget Reconciliation
Act of 1990 (OBRA-90) and the Independent Offices Appropriation Act of 1952
(IOAA). We are prepared to meet with you to resolve any differences we may have
prior to issuance of the report in final. Nonetheless, we have given your
recommendations our thoughtful consideration and have made a good faith effort to
employ them to make cost effective improvements in our program. This response
includes our comments on the recommendations, which we did not specifically
address in our previous response.

OBRA-90 COMPLIANCE

OIG FINDING:           “Extended use” over a period of three years of the percent
                       change methodology did not fully reflect the intent of OBRA-
                       90. There were no specific thresholds for rebaselining.
                       During this time, budgeted costs changed, and the
                       relationship between costs and fees deteriorated. This
                       resulted in some licensees subsidizing the costs of other
                       licensees. The desired result of maintaining predictability and
                       stability was negated.


OIG/99A-01                                                                  Page 1 of 15
Appendix VI
NRC’s License Fee Development Process Needs Improvement

               RESPONSE TO OIG FINDINGS:

               Extended use of percent change

               The OIG is critical of the percent change methodology being used over an
               “extended” period of time, which it contends resulted in promulgation of an annual
               fee schedule in FY 1998 that, in its opinion, did not fully comply with the intent of
               OBRA-90. This assessment is based on the OIG judgment that utilization of the
               percent change methodology over the three years from fiscal year (FY) 1996 through
               FY 1998 did not produce the desired results–maintaining a close relationship
               between fees and the costs of providing services while preserving fee stability and
               predictability. In addition, the OIG challenges the Commission’s decision to use
               percent change because it results in the potential for certain licensees to subsidize
               the costs of other licensees.

               The CFO has the delegated authority to develop and promulgate proposed and final
               revisions to the agency’s fee regulations, except those that involve significant
               questions of policy. When significant policy questions are involved, the staff
               provides the Commission with a paper outlining the policy and legal issues for the
               Commission’s consideration. After carefully analyzing the complex legal and policy
               considerations set forth by the staff in the Commission paper for the FY 1998 fee
               rulemaking (SECY 98-034), and mindful of the competing interests involved in
               maintaining the requisite relationship between costs and fees while maintaining
               fee stability, the Commission made a conscious decision not to rebaseline fees in
               FY 1998 (March 23, 1998, Staff Requirements Memorandum for SECY 98-034).
               That Commission decision also was preceded by a lengthy meeting of Commission
               Office Assistants with the representatives of OCFO and OGC, during which the
               pertinent legal and policy considerations were fully discussed. The Office of the
               General Counsel had advised that election of that method was legally defensible and
               that it had no legal objection to the use of the percent change method in calculating
               FY 1998 annual fees.

               The Office of the General Counsel’s conclusion that the FY 1998 fee rule satisfied
               legal requirements is based on its reading of OBRA-90(1) and the caselaw
               interpreting that statute.(2) Under OBRA-90, NRC has express authority to assess
               fees for costs in providing services or things of value, pursuant to the Independent
               Offices Appropriations Act (IOAA). OBRA-90 also establishes NRC authority to
               collect annual charges from licensees in an amount that approximates 100 percent
               of the budget authority of the Commission in the fiscal year in which the charge is
               collected, less amounts appropriated from the Nuclear Waste Fund and IOAA fees
               collected.




       1
        42 U.S.C. §2214.

       2
        Allied-Signal, Inc. v. NRC, 988 F. 2d 146 (D.C. Cir. 1993).

               OIG/99A-01                                                                Page 2 of 15
                                                                                  Appendix VI
                                 NRC’s License Fee Development Process Needs Improvement

      The statutory criteria for annual charges are fairly simple: the fees must be
      established by rule; they must be fairly and equitably allocated among licensees; and
      they must have a reasonable relationship to the cost of providing regulatory services,
      to the maximum extent practicable. From the limited OBRA-90 caselaw available,
      we learn that the NRC is not required to apportion generic costs within a class of
      licensees, because OBRA-90 annual fees are not service-specific, i.e., they do not
      relate to identifiable services, even if the regulatory effort involved was precipitated
      by the circumstances of a single licensee. There is a legal presumption that results
      of the generic regulatory effort, such as the conduct of research or the promulgation
      of regulations, will yield benefits across the class of roughly equal importance for all
      members, assuming the costs in question were correctly classified.(3)

      Fee stability and predictability

      The OIG draft report expresses concern that the NRC’s reliance on the percent
      change methodology resulted in the loss of the required “reasonable relationship”
      between fees and the costs of providing services. The Commission found to the
      contrary, in approving promulgation of the FY 1998 fee rule. The Commission
      determined that there would continue to be a reasonable relationship between costs
      and fees if the percent change method was used, although the distribution of the
      agency’s budget had changed somewhat from the FY 1995 baseline. After
      evaluating the data provided to it by the CFO, the Commission decided that the
      relationship between costs and fees was not sufficiently attenuated to justify
      rebaselining under the criteria it had established previously during the rulemaking
      process. It therefore chose to continue fee stabilization by using the percent change
      method. This was consistent with the Commission’s announcement in 1995, in
      response to industry complaints about fee instability, that for a five year period, it only
      would rebaseline fees if certain stated criteria were met.

      As the OIG draft report acknowledges, adoption of the percent change methodology
      stemmed from an effort to bring stability and predictability to fees, so licensees
      would have some means of estimating the fee burden from year to year and plan for
      it in their budgeting process. The objective was to soften some of the more dramatic
      annual swings produced if an annual rebaselining methodology is used. The record
      amply demonstrates that by using the percent change method for FYs 1996 through
      1998, the desired fee stability was achieved. This does not mean that fees would
      remain at a constant level any more than that it could suggest that no licensee would
      ever experience a spike in fee rates. An eventual readjustment of the fee schedule
      was not only anticipated but was, in fact, to be the ultimate goal of applying the stated
      criteria, based on evaluating the overall circumstances that would dictate the need
      for a significant shift. Thus, it is the extent and timing of the readjustment over which
      we disagree. To be sure, rebaselining could have been employed sooner, had the
      Commission determined that the criteria had been met. However, it assessed the
      situation carefully and concluded that rebaselining was not warranted at that time.
      Indications from licensees are consistent with this, as many favorable comments on


3
Id.

      OIG/99A-01                                                                      Page 3 of 15
Appendix VI
NRC’s License Fee Development Process Needs Improvement

               fee stability were received from licensees during this period. Ultimately, even though
               the Commission desired to accommodate licensee pleas for prolonged fee stability,
               the Commission concluded that circumstances warranted rebaselining fees in FY
               1999, in accordance with the stated criteria.

               We believe the Commission has appropriately considered and balanced the
               complex competing interests in establishing fee policies, and that each year’s fee
               rules have comported with applicable legal requirements. Additionally, each year the
               Commission promulgates a proposed fee rule which describes intended changes
               and solicits comments from our licensees. Those comments are considered and
               responded to in our final fee rule.

               Specific thresholds for rebaselining

               The draft report suggests that the OIG concerns could be resolved by developing
               more specific thresholds that could be mechanically applied to determine whether
               fees should be rebaselined each year. This would involve developing a definition for
               “substantial change” and “magnitude of the budget allocated,” criteria used by the
               Commission for determining whether fees should be rebaselined. While there may
               be some benefits to such an approach, the difficulty it presents is that establishing
               specific thresholds for rebaselining would eliminate the Commission’s ability to
               weigh all the pertinent factors during the decision-making process.

               Whether to use the percent change method or to rebaseline annual fees is a policy
               judgment to be made only after evaluation of many considerations. For example, the
               Commission decision to rebaseline FY 1999 annual fees was based in large part on
               fee policy changes, such as establishment of a new fee class and the inclusion of
               amendment costs in nuclear material users’ annual fees. However, not every
               Commission decision can be made on the basis of quantifiable thresholds.
               Moreover, public comments on the FY 1995 through FY 1999 fee rules do not
               indicate the need to develop more precise rebaselining criteria. In addition,
               substantial changes in individual licensees’ annual fee amounts may result from
               many things other than changes in the budget or in the amount of the budget
               allocated to a class of licensees, such as reduced IOAA fee collections from a class
               of licensees or a decreasing number of licensees in the class.

               Licensees subsidizing costs of others

               The draft report is also critical of the percent change methodology because it could
               result in some licensees subsidizing the costs of others. This is not legally
               objectionable. Indeed, in the Conference Report accompanying OBRA-90,
               Congress expressly recognized that



                       there are expenses that cannot be attributed either to an individual
                       licensee or a class of licensees.... The conferees intend the NRC to
                       fairly and equitably recover these expenses from its licensees

               OIG/99A-01                                                                 Page 4 of 15
                                                                                   Appendix VI
                                  NRC’s License Fee Development Process Needs Improvement

               through the annual charge even though these expenses cannot be
               attributed to individual licensees or classes of licensees. These
               expenses may be recovered from such licensees as the
               Commission, in its discretion, determines can fairly, equitably, and
               practicably contribute to their payment.(4)

       Thus, Congress expected a certain amount of cost subsidization and there certainly
       would be no legal bar to licensees subsidizing costs of others, either under the
       percent change method or under rebaselining. OBRA-90 states that “To the
       maximum extent practicable, the [annual] charges shall have a reasonable
       relationship to the cost of providing regulatory services....”(5) The statute goes on to
       say that the annual charges “may be based on the allocation of the Commission’s
       resources among licensees or classes of licensees.” Congress recognized that the
       allocation of fees would necessarily diverge from the allocation of resources in the
       budget, since it understands that some agency activities are not easily traceable to
       particular licenses or classes of licenses. Indeed, in the face of the 100 percent
       recovery mandate, there are few alternatives available to achieve a reasonable and
       equitable fee schedule, particularly since the NRC, for legal or policy reasons,
       exempts or reduces the fee burden for certain groups. For example, the
       Commission lacks the legal authority to charge other Federal agencies (other than
       TVA) for licensing reviews and inspections. Similarly, annual fees cannot be
       imposed on Agreement States, although the Commission’s development and
       oversight of the materials licensing program includes activities that provide
       regulatory support to the Agreement States. Also, consistent with the policies of the
       Regulatory Flexibility Act, small entities pay reduced annual fees. Therefore, the
       costs of activities benefitting beneficiaries who are exempted from fees either by
       statute or Commission policy must be borne by other licensees.

       IOAA COMPLIANCE

       OIG FINDING: Lack of full cost recovery criteria results in non-compliance with
                    IOAA.

                               Similar costs were treated inconsistently and as a result
                               hourly rates are not in compliance with the full cost
                               requirement of OMB Circular A-25. NRC inconsistently
                               includes some generic costs and excludes others in the
                               hourly rates. Contract support costs excluded from the
                               hourly rate were not analyzed to determine if they are truly
                               generic. Some costs included in the hourly rate were
                               specified in the OBRA-90 Conference Committee Report as
                               generic (i.e, Offices of the Commissioners, the General
                               Counsel, and the Inspector General).


4
H.R. Rep. No. 962-3, 101st Cong. 2d Sess at 962-963 (1990).

5
42 U.S.C. §2214 (c)(3).

       OIG/99A-01                                                                   Page 5 of 15
Appendix VI
NRC’s License Fee Development Process Needs Improvement


                                           Budget data is applied inconsistently in developing the hourly
                                           rates. Using budget data without considering the nature of
                                           the costs resulted in errors. Reasonableness of the hourly
                                           rate calculation was not assessed from actual billing data in
                                           RITS. The NRC did not implement the requirement of the
                                           Statement of Federal Financial Accounting Standards
                                           (SFFAS) No. 4, Managerial Cost Accounting Standards, to
                                           use actual costs from cost accounting data to prepare hourly
                                           rates.

                 RESPONSE TO OIG FINDINGS:

                 We strongly disagree with the draft report’s conclusion that the agency is not
                 recovering the full cost of those activities whose costs are recovered through fees
                 imposed pursuant to the IOAA. That statute authorizes agencies to establish
                 charges for services or “things of value” and requires only that the charges be fair
                 and based on costs to the government, as well as value to the recipient. This law
                 permits agencies to recoup costs from identifiable beneficiaries but not from whole
                 industries. Caselaw instructs that IOAA charges may only be assessed against
                 specific entities for specific services,(6) and only to the extent that a specific benefit
                 is conferred upon an identifiable beneficiary.(7) Under the law, broad conferral of a
                 general benefit, even upon the affected industry, does not justify the imposition of
                 IOAA fees.(8) The courts have further taught that agencies are entitled to recover all
                 reasonable costs incurred and that these costs must bear a reasonable, but not
                 necessarily exact, relationship to the fees assessed.(9) Scientific precision is not
                 required. The D.C. Circuit has opined, “[c]alculations must necessarily be based
                 on numerous approximations and can only be expected to be accurate within
                 reasonable limits.”(10)

                 Based on the numerous meetings between our staffs and our review of the draft
                 report, it appears that the major disagreement between our offices centers on
                 whether certain generic contract support costs should be included in the hourly rates
                 for purposes of Part 170 fees. The draft OIG report contends that the agency’s
                 failure to include some of these costs in that hourly rate violates the full cost



       6
        Federal Power Commission v. New England Power Co., 415 U.S. 345 (1974).

       7
        Engine Mfrs. Ass’n v. EPA, 20 F. 3d 1177 (D.C. Cir. 1994).

       8
        Id.

       9
        Yosemite Park and Curry Co. v. U.S., 686 F. 2d 925 (Ct. Cl. 1982).

       10
           Central & Southern Tariff Association, Inc. v. U.S., 777 F.2d 722, 736 (D.C. Cir. 1985).

                 OIG/99A-01                                                                           Page 6 of 15
                                                                                             Appendix VI
                                            NRC’s License Fee Development Process Needs Improvement

                recovery provisions of OMB Circular A-25.(11) Moreover, it results in the OIG’s view
                that similar costs have been treated inconsistently. We remain convinced that our
                current Part 170 fee schedule is fully consistent with the provisions of the IOAA as
                well as OMB Circular A-25. We agree that the agency’s user fees must recover its
                full costs; we disagree that the full costs must all be recovered solely through the
                hourly rate. In fact, the NRC’s methodology used in calculating its Part 170 fee
                schedules has been affirmed by the courts.(12)

                There is no dispute that the NRC can recover pursuant to the IOAA the full costs of
                providing licensing and inspection services to identifiable beneficiaries of those
                agency services. This would include not only direct salaries, benefits, and direct
                program contract support costs, but a prorated share of overhead and general and
                administrative costs (G&A) such as light, heat, rent, financial accounting and
                personnel services. Specific research costs that are incurred by the NRC staff as
                necessary or useful in its review of a particular application can also be charged to
                the applicant. It is equally clear that the costs of generic activities such as
                rulemaking and research that cannot be attributed to a single identifiable beneficiary
                (such as research that benefits all pressurized water reactors) cannot be recovered
                pursuant to the IOAA. (13) These are the principles that the NRC uses in developing
                its Part 170 fee schedules.

                While recognizing these principles, the OIG concludes in the draft report that the
                NRC includes some generic costs in its Part 170 hourly rate calculation and
                therefore, has not consistently interpreted the statutory requirement. The OIG
                believes that generic contract costs in support of NRC mission programs could
                similarly be included in the Part 170 hourly rate calculation. The draft report notes
                that the Congressional Conferees that developed OBRA-90 in explaining the
                statutory provisions indicated that some agency costs that could not be recovered
                under the IOAA would need to be recovered through imposition of annual fees.
                Specifically, the conferees stated that:




        11
          OMB Circular A-25 is a statement of policy that does not have the force and effect of law and is
not binding on the courts. Bechtel v. FCC, 10 F.3d 975 (D.C. Cir. 1993). It has the legal status of neither
statute nor regulation and it is susceptible to judicial construction of any underlying statute. Indeed, the
Supreme Court has held that it is within an agency’s discretion whether it will comply at all with
requirements of an OMB Circular, unless compliance is mandated by an “applicable law.” IRS v. FLRA, 494
U.S. 922 (1990) (concerning IRS implementation of OMB Circular A-76 on “contracting out” non-
governmental activities).

        12
         Mississippi Power & Light Company V. NRC, 601 F.2d 223 (5th Cir. 1979), cert. den., 444 U.S.
1102 (1980).

        13
          Id.

                OIG/99A-01                                                                       Page 7 of 15
Appendix VI
NRC’s License Fee Development Process Needs Improvement

                               Examples of these expenses may include costs
                               associated with certain generic research and
                               rulemaking proceedings and the operating expenses
                               of various NRC offices, including those of the
                               Commissioners, the General Counsel, the Inspector
                               General, and Governmental and Public Affairs.(14)

               Consistent with the Conferees’ guidance above, the Commission has viewed these
               as examples, not as a legally binding determination of which costs cannot be
               recovered under the IOAA. The Commission has decided that most of the functions
               performed by the listed offices are general and administrative, akin to light, heat, and
               rent–fundamental services performed within any Federal agency. Thus, most of the
               costs of these offices are treated similarly to overhead in calculating the hourly rate.
               The agency has chosen to use the same hourly rate for determining fees under Part
               170 and Part 171. The costs of these offices are distributed to Part 170 and Part
               171 fees in the same ratio as the agency’s direct program FTE cost recovery under
               the two parts. Thus, if the agency recovers 30 percent of its direct program FTE
               costs through Part 170 fees in a given year, 30 percent of the heat, light, rent, and
               costs of the offices listed above would be recovered through Part 170 fees.

               It might be argued that if data were maintained showing what percentage of each
               employee’s time is allocated between activities under the two Parts, perhaps, for
               example, only 25 percent of a Commissioner’s time would be recovered under Part
               170. However, as noted above, IOAA fees do not need to be calculated with
               mathematical precision and any effort to otherwise allocate the costs of the listed
               offices to Parts 170 and 171 would only complicate the fee schedule. Complicating
               the fee schedule would be contrary to the OIG’s 1993 Report which suggested that
               calculation of the Part 171 fees be simplified.

               This contrasts with the Commission’s treatment of the generic contract costs that
               are of concern to the OIG. The Commission does not view those costs as akin to
               light, heat, and rent. These are costs for activities that are being performed solely
               to support NRC’s generic programmatic efforts, such as rulemaking and generic
               confirmatory research. It is clear under IOAA caselaw, particularly Mississippi
               Power and Light, supra, that the costs of generic rulemaking and research cannot
               be recovered under Part 170. It follows that contract support work associated with
               those generic activities cannot similarly be recovered under Part 170. Thus, the
               Office of the General Counsel has concluded that the treatment of generic contract
               support costs advocated by the OIG is not consistent with legal requirements.

               Including direct FTE from program offices that do not usually perform Part 170 work
               in the hourly rate calculations does not result in unreliable rates or in costs for
               generic activities being recovered under Part 170 as the report suggests. These


       14
         H.R. Rep. No. 964, 101st Cong. 2d Sess at 962-963 (1990).

               OIG/99A-01                                                                   Page 8 of 15
                                                                           Appendix VI
                          NRC’s License Fee Development Process Needs Improvement

direct employees are included in the hourly rate calculations to arrive at an average
fee amount per direct program employee, whether the employee is performing Part
170 work or work that is not subject to Part 170 cost recovery. If a direct program
employee performs Part 170 work, that work is billed under Part 170 at the hourly
rate. If a direct program employee performs generic or other work that is not subject
to Part 170 fees, the costs are recovered in annual fees under Part 171 at the same
hourly rate.

The draft report findings continue to indicate the OIG’s belief that the hourly rates are
developed and used solely for Part 170 fee purposes. This is not the case. On
several occasions, we have explained to the audit staff the concepts behind NRC’s
hourly rate development and their purpose. Additionally, the approach is provided in
each fee rule for public comment. In brief, the hourly rates are developed based on
the total number of direct program FTE; those direct program FTE who perform
work that is billable under Part 170 and those direct program FTE who perform work
that is recovered under Part 171. For each direct program FTE, the hourly rates
reflect an appropriate share of direct costs (salaries and benefits) and indirect costs
(office overhead and agency G&A costs, such as rent, and the Offices of the
Commissioners, General Counsel, and Public Affairs), consistent with OMB Circular
A-25. Thus, the hourly rate prorates overhead and general and administrative costs
to both Part 170 and Part 171 fees. The hourly rate represents the “full cost” (direct
salaries and benefits plus a prorated share of overhead and G&A expenses) for a
direct program FTE.

In calculating rebaselined annual fees, the total budgeted direct program FTEs
allocated to each of the eight licensee classes are converted to dollar amounts using
the established hourly rates. The total budgeted direct program contract support
costs is added to the direct program FTE costs to arrive at the total budgeted costs
for each class. The annual fee amount for each class is then determined by
subtracting the estimated amount of Part 170 fees from the total budgeted costs for
that class. This results in a fair and accurate allocation of costs using the simplest
methodology we have been able to devise.

We do not believe it is appropriate or useful, as the draft report suggests, to base
hourly rate calculations on historical RITS billable data because the hourly rate does
not, and is not designed to, include only FTE whose work is billable under Part 170.
Thus, comparing the total FTEs included in the hourly rates only to the FTEs billed
under Part 170 results in an inappropriate comparison.

Finally, we find nothing in SFFAS 4 that would require the agency to use actual cost
accounting data to prepare the hourly rates. We are aware that SFFAS 4 lists fee
or price setting as one of several purposes for which managerial cost accounting
can be used, and the OIG’s draft report correctly quotes from SFFAS 4 that “[c]ost
information is an important basis in setting fees and reimbursements.” However,
immediately following the sentence quoted by the OIG, SFFAS 4 goes on to say,
“[p]ricing and costing, however, are two different concepts. Setting prices is a policy

OIG/99A-01                                                                    Page 9 of 15
Appendix VI
NRC’s License Fee Development Process Needs Improvement

               matter, sometimes governed by statutory provisions and regulations, and other
               times by managerial or public policies. Thus, the price of a good or service does not
               necessarily equal the cost of the good or the service determined under a particular
               set of principles. Nevertheless, cost is an important consideration in setting
               government prices.” In addition, Section 204 of Appendix A to SFFAS 4 states, in
               part, “[o]nly with reliable full cost information can management ensure that user
               charges fully recover the costs.” This statement is footnoted, though: “[t]he
               standard of determining full cost discussed in this document, however, should not
               be construed as a standard for setting fees, prices, and reimbursements.”
               Nonetheless, in light of these concerns that you raised early in the audit process,
               OCFO has reviewed all generic contract costs to make sure they were properly
               allocated between Parts 170 and 171. This is further discussed in our response to
               Recommendation 2.

               STRENGTHENING OF MANAGEMENT CONTROLS

               OIG FINDING: There are no formal procedures for developing license fees. Formal
                            procedures and increased quality control could have detected errors.
                            Two errors were identified.

               RESPONSE TO OIG FINDINGS:

               The report points out that there are no formal procedures for developing license fees.
               The report concludes that formal procedures would have made the transition for new
               staff smoother and would have provided for quality control reviews which could have
               identified errors that occurred. The report also contends that fee calculations lack
               adequate quality control; there was no objective review of the calculations to detect
               errors and ensure calculations were correctly prepared. Two errors were identified:
               the inclusion of Regional Management and Support as direct costs in the FY 1998
               hourly rate and an error in the percent change calculation.

               We generally agree that formal procedures may be helpful. However, each year
               there is the potential for changes in fee policy, budget structure, and/or agency
               processes that could affect the manner in which the fees are determined. As a
               result, it must be recognized that formal procedures may have to be relatively
               general in nature. Moreover, while formal procedures and additional reviews of the
               calculations may help to maintain accuracy, this recommendation should not cloud
               the fact that great effort is made by everyone involved in the process to avoid errors
               in the fee calculations. Our goal is 100 percent accuracy; however, despite the
               detailed process followed to assure the fees are fair and satisfy legal requirements,
               as the report concedes, errors cannot be totally prevented. Errors in the fee
               development process, however, have been few and infrequent. OCFO takes pride
               in the fact that the checks and balances inherent in its system produce a careful
               examination of its own process, which generally would lead to discovery of any
               errors and permit corrective action in a timely manner. This position is supported


               OIG/99A-01                                                                Page 10 of 15
                                                                                             Appendix VI
                                            NRC’s License Fee Development Process Needs Improvement

                by the fact that one of the errors referred to in the report was recognized by the
                OCFO and corrective steps were taken prior to initiation of this very audit.

                Each year, given limited resources, OCFO must analyze the budget, consider
                issues to be addressed, develop the fees, prepare a Commission paper if
                appropriate, prepare a proposed rule, analyze public comments, and prepare the
                final rule. All of this must be accomplished by mid-June of each year in order for the
                final rule to become effective and to bill and collect the required amounts before the
                end of the fiscal year, as required by OBRA-90. It is impossible, given available
                resources, to conduct detailed quality assurance reviews of each of the hundreds
                of calculations and meet this stringent schedule. Further, the cost effectiveness of
                additional detailed quality assurance reviews is not evident.

                INFORMATION PROVIDED DURING PUBLIC COMMENT PERIOD

                OIG FINDING: Inadequate information was provided during the public comment
                             period. A key document linking the budget to the fee calculations was
                             omitted from the fee work papers in violation of the requirements of
                             the Administrative Procedure Act. OIG believes the public would
                             have had difficulties in reviewing the hourly rate calculations.

                RESPONSE TO OIG FINDINGS:

                The report states that inadequate information was provided during the public
                comment period, and in particular, that a key document linking the budget to the fee
                calculations was omitted from the supporting work papers, which purportedly are
                required to be made available under the Administrative Procedure Act (APA).
                Without this document, the report says, it was not possible to determine how the
                fees were developed and the report presumes that the public would have had similar
                difficulties in reviewing the hourly rate calculations.

                APA statutory requirements are broadly stated;(15) the matter of supporting papers
                is not addressed at all. Courts have interpreted the APA notice requirement as
                affording meaningful public participation in the adoption of an agency rule.(16) This

        15
            The APA requires that a general notice of proposed rule be published in the Federal Register and
that it include:

        (1) a statement of the time, place, and nature of the public rule making proceedings;

        (2) reference to the legal authority under which the rule is proposed; and

        (3) either the terms or substance of the proposed rule or a description of the subjects and issues
involved. [emphasis added] 5 U.S.C. §553(b).

        16
          Nevada Land Action Ass’n v. Forest Service, 8 F. 3d 713 (9th Cir. 1993).

                OIG/99A-01                                                                       Page 11 of 15
Appendix VI
NRC’s License Fee Development Process Needs Improvement

                 requires that the agency provide sufficient factual detail and rationale to permit
                 interested parties to comment meaningfully(17) but the agency need not provide
                 precise notice of each aspect of the regulations eventually adopted.(18) Under the
                 APA, the purpose of the notice is to disclose the agency’s thinking and the data on
                 which it relied.(19) The agency is obligated to make its views known to the public in
                 concrete and focused form so as to make criticism or formulation of alternatives
                 possible.(20) The notice will be considered legally sufficient if the notice is adequately
                 descriptive of the subjects and issues involved so interested parties may offer
                 informed criticism and comments.(21) In sum, the notice must simply “fairly apprise
                 interested persons” of the issues in the rulemaking.(22) There is no legal requirement
                 for the agency to publish every bit of background information it used in preparing the
                 rule.(23)

                 Agencies are to justify IOAA fees by a clear statement of the service or benefit
                 expected to be reimbursed.(24) The cost basis for each fee is to be calculated by
                 allocating specific expenses to the smallest practical unit, excluding any that serve
                 an independent public interest, and providing an explanation of the specific expenses
                 to be included in the cost basis for the individual fee, with the criteria used to include
                 or exclude particular items.(25) NRC has complied with each of these requirements.
                 In addition to the complete and detailed explanation contained in its published
                 rulemaking notices, the NRC places its work papers supporting both its proposed
                 rule and its final rule in the Public Document Room (PDR) so they can be examined



          17
           Florida Power & Light Co. v. U.S., 846 F. 2d 765 (D.C. Cir. 1988), cert. den. 490 U.S. 1045
(1989).

          18
           Forester v. Consumer Product Safety Commission, 559 F. 2d 774 (D.C. Cir. 1977).

          19
           Lloyd Noland Hosp. and Clinic v. Heckler, 762 F. 2d 1561 (11th Cir. 1985).

          20
           Home Box Office , Inc. v. FCC, 567 F.2d 9 (D.C. Cir. 1977), cert. den. 434 U.S. 829 (1977).

          21
          National Mining Association v. MSHA, 116 F. 3d 520 (D.C. Cir. 1997); Association of Am.
Railroads v. DOT, 39 F. 3d 582 (D. C. Cir. 1994); Ethyl Corp. v. EPA, 541 F. 2d 1 (D.C. Cir. 1976), cert.
den. 426 U.S. 941 (1976).

          22
           United Steelworkers v. Marshall, 647 F. 2d 1189, 1221 (D. C. Cir. 1980).

          23
          B. F. Goodrich Co. v. DOT, 541 F. 2d 1178 (D.C. Cir. 1976), cert. den. 430 U.S. 930 (1977). See
also federal guidelines on adequacy of notice. Lubbers, A Guide to Federal Agency Rulemaking, 1998
ABA Sec. Pub. 186.

          24
           Public Service Co. of Colorado v. Andrus, 433 F. Supp. 144 (D.C. Colo. 1977).

          25
           Id.

                 OIG/99A-01                                                                      Page 12 of 15
                                                                          Appendix VI
                         NRC’s License Fee Development Process Needs Improvement

by the public. Moreover, the NRC has done more than is required by law in making
its supporting work papers publicly available through the PDR.

In this case, we received no complaints from commenters about a lack of adequate
information concerning the FY 1998 hourly rate calculations, which tends to support
our view that the public believed we provided adequate means to examine the fee
rule. In addition, the name, phone number, and address of the NRC employee to be
contacted were provided in the proposed rule in case there was a need for additional
information. Thus, we believe that we provided complete and sufficient information
to permit the public full opportunity to understand and comment upon the FY 1998
fee rule. The OIG’s assertion that NRC violated the APA in the fee rulemaking is
simply wrong. However, in response to the OIG’s concern, in the future, if
circumstances occur where some of the background material for the fee rule is
withheld from public disclosure as predecisional information, we will conduct a
specific review of the material used to develop the rule to assure that there is
sufficient information made available to the public.

RESPONSE TO RECOMMENDATIONS:

Recommendation 1:

Using the percent change method for fee calculation only after conducting an annual
pro-forma rebaselining analysis. The CFO should develop specific thresholds to
determine substantial changes at the fee classification level and use these
thresholds in making a decision on which method to use for calculating annual fees.

Response: Agree in part.

Based on the on-going efforts at the time of the proposed FY 1999 fee rule
development and comments received from the Commission, the OCFO plans, as
part of each year’s fee rule development and Commission paper, to conduct an
analysis based on percent change and rebaselining. As you are aware, this was
done for both the FY 1998 and FY 1999 fee rules to assist the Commission in
establishing the fee policy for those years. Those preliminary numbers will be
provided with the CFO’s recommendation as to which method to use for each fiscal
year and will take into consideration all other policy issues which may affect the fee
rule. Whether to use the percent change method or whether to rebaseline is a policy
judgment to be made only after evaluation and consideration of the many factors
involved. While we could consider establishing numerical thresholds for the various
fee classifications, we do not believe numbers alone should be the determining
factor as to when to rebaseline. We believe establishment of mechanical numerical
thresholds would eliminate the Commission judgment needed to develop fair fee
schedules that take into account all pertinent considerations. Therefore, the OCFO
does not plan to recommend to the Commission that the NRC establish thresholds
which would form the bases of when to rebaseline.


OIG/99A-01                                                                Page 13 of 15
Appendix VI
NRC’s License Fee Development Process Needs Improvement

               Recommendation 2:

               Reevaluating the hourly rate calculation methodology so that the rates NRC develops
               include the full cost as embodied in OMB Circular A-25 and SFFAS No. 4. The
               reassessment should (a) define and identify generic costs and explain how to treat
               such costs, (b) establish a policy that clearly defines resources and how such
               resources should be treated in fee calculations, and (c) use actual billing and cost
               data to develop and refine future rate calculations.

               Response: Agree in part.

               We agree with the OIG’s recommendation that we examine the existing approach
               for developing fees to determine if the approach can be improved in a cost-effective
               manner.

               As indicated in the CFO’s February 25, 1999, response to Recommendation 7 of the
               Draft Audit Report-Audit of the NRC’s Fiscal Year 1998 Financial Statements, OCFO
               formed a multi-office team to study the generic costs to determine whether the costs
               currently identified as “generic” continue to meet the definition contained in the
               Conference Report to the Omnibus Budget Reconciliation Act. The OCFO expects
               to issue a report on the study in early December 1999. After you have reviewed the
               report, if you still have concerns that we are not complying with the requirements of
               IOAA, it is important that we meet to discuss this issue further. Therefore, since we
               continue to dispute your findings with regard to the calculation of the hourly rate,
               OCFO will not be implementing your recommendations with regard to how the hourly
               rate calculations are determined at this time, nor do we plan to modify the
               methodology employed.

               In the meantime, OCFO has entered into a contract with an outside professional
               accounting firm for an analysis of the current fee model and for development of
               alternatives for determining whether there are cost-effective methods to improve the
               allocation of the budget for fee purposes. Until this effort is completed, we do not
               expect to use actual billings and cost data to develop and refine future rate
               calculations. Definitions, identification and treatment of generic costs, and
               establishment of a policy that more clearly defines resources and how they should
               be treated in the fee calculations, including any changes resulting from this analysis,
               will be included in the documentation of the fee development process described in
               our response to Recommendation 3 below.




               OIG/99A-01                                                                 Page 14 of 15
                                                                          Appendix VI
                         NRC’s License Fee Development Process Needs Improvement

Recommendation 3:

Developing formal criteria and procedures that (a) implement Recommendations 1
and 2, (b) describe the fee development process and steps, (c) ensure consistency
of fee calculations, and (d) provide quality control procedures for fee calculation.

Response: Agree in part.

For subpart (a), OCFO will develop any necessary criteria and procedures for those
portions of Recommendations 1 and 2 with which we agree. For subpart (b),
OCFO has developed a Request for Proposal to have a contractor document the fee
development process. We estimate it will be completed by September 30, 2000.
For subpart (c), we believe there is consistency in the current fee calculations and
that future fee rules will have consistent fee treatment. As for subpart (d), OCFO
already provides quality assurance reviews for fee calculations commensurate with
available staff resources and the short time frame for fee rule development.
However, as with all our financial activities, we will strive to improve the quality
assurance and quality control of the fee rule development process. Our QA process
will be included in the documentation of the fee development process previously
discussed.

CONCLUSION:

Based on the legal and policy reasons presented, we continue to disagree with a
substantial number of the findings and conclusions in the audit report. We do not
believe the report accurately portrays the program conducted by the agency to
prepare and calculate fees. We believe that the fees developed and assessed were
fairly and accurately distributed among licensees, were in compliance with pertinent
laws and regulations and fully reflected the intent of applicable legislation.




OIG/99A-01                                                                Page 15 of 15
                                                                          Appendix VII
                         NRC”s License Fee Development Process Needs Improvement

NRC ORGANIZATION CHART




         OIG/99A-01                                                         Page 1 of 1
                                                                          Appendix VIII
                          NRC’s License Fee Development Process Needs Improvement

MAJOR CONTRIBUTORS TO THIS REPORT


         Anthony Lipuma
         Team Leader


         Camilla Barror
         Auditor




         OIG/99A-01                                                          Page 1 of 1
                                                                                   Appendix IX
                                  NRC’s License Fee Development Process Needs Improvement

                    OFFICE OF THE INSPECTOR GENERAL PRODUCTS

                      INVESTIGATIVE
1.   INVESTIGATIVE REPORT - WHITE COVER
     An Investigative Report documents pertinent facts of a case and describes available evidence
     relevant to allegations against individuals, including aspects of an allegation not substantiated.
     Investigative reports do not recommend disciplinary action against individual employees.
     Investigative reports are sensitive documents and contain information subject to the Privacy
     Act restrictions. Reports are given to officials and managers who have a need to know in order
     to properly determine whether administrative action is warranted. The agency is expected to
     advise the OIG within 90 days of receiving the investigative report as to what disciplinary or
     other action has been taken in response to investigative report findings.

2.   EVENT INQUIRY - GREEN COVER
     The Event Inquiry is an investigative product that documents the examination of events or
     agency actions that do not focus specifically on individual misconduct. These reports identify
     institutional weaknesses that led to or allowed a problem to occur. The agency is requested
     to advise the OIG of managerial initiatives taken in response to issues identified in these
     reports but tracking its recommendations is not required.

3.   MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
     MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of
     problems and to avoid similar issues in the future. Agency tracking of recommendations is
     not required.

             AUDIT

4.   AUDIT REPORT - BLUE COVER
     An Audit Report is the documentation of the review, recommendations, and findings resulting
     from an objective assessment of a program, function, or activity. Audits follow a defined
     procedure that allows for agency review and comment on draft audit reports. The audit results
     are also reported in the OIG's "Semiannual Report" to the Congress. Tracking of audit report
     recommendations and agency response is required.

5.   SPECIAL EVALUATION REPORT - BURGUNDY COVER
     A Special Evaluation Report documents the results of short-term, limited assessments. It
     provides an initial, quick response to a question or issue, and data to determine whether an
     in-depth independent audit should be planned. Agency tracking of recommendations is not
     required.

             REGULATORY

6.   REGULATORY COMMENTARY - BROWN COVER
     Regulatory Commentary is the review of existing and proposed legislation, regulations, and
     policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in
     programs and operations. Commentaries cite the IG Act as authority for the review, state the
     specific law, regulation or policy examined, pertinent background information considered and
     identifies OIG concerns, observations, and objections. Significant observations regarding
     action or inaction by the agency are reported in the OIG Semiannual Report to Congress.
     Each report indicates whether a response is required.



     OIG/99A-01                                                                             Page 1 of 1
